<html>
<title> - CURRENT AND PROJECTED THREATS TO THE NATIONAL SECURITY OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 110-824]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-824

         CURRENT AND PROJECTED THREATS TO THE NATIONAL SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 5, 2008

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate






                  U.S. GOVERNMENT PRINTING OFFICE
48-119                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]
            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
               CHRISTOPHER BOND, Missouri, Vice Chairman
DIANNE FEINSTEIN, California         JOHN WARNER, Virginia
RON WYDEN, Oregon                    CHUCK HAGEL, Nebraska
EVAN BAYH, Indiana                   SAXBY CHAMBLISS, Georgia
BARBARA A. MIKULSKI, Maryland        ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 RICHARD BURR, North Carolina
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                   Andrew W. Johnson, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk


















                                CONTENTS

                              ----------                              

                            FEBRUARY 5, 2008

                           OPENING STATEMENTS

Rockefeller, Hon. John D., IV, Chairman, a U.S. Senator from West 
  Virginia.......................................................     1
Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     4
Feingold, Hon. Russ, a U.S. Senator from Wisconsin...............    93

                               WITNESSES

McConnell, J. Michael, Director of National Intelligence.........     7
    prepared statement...........................................    14
Hayden, Michael V., Director, Central Intelligence Agency........    60
Fort, Randall M., Assistant Secretary of State, Bureau of 
  Intelligence and Research......................................    62
Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation..................................................    65
Maples, Michael G., Director, Defense Intelligence Agency........    66

                       SUBMISSION FOR THE RECORD

Turner, Kathleen, Director of Legislative Affairs, Office of the 
  Director of National Intelligence, letter transmitting 
  responses to questions from Committee Members, May 2, 2008.....   104

 
 CURRENT AND PROJECTED THREATS TO THE NATIONAL SECURITY OF THE UNITED 
                                 STATES

                              ----------                              -
------


                       TUESDAY, FEBRUARY 5, 2008

                              ----------                              -
------

                               U.S. Senate,
                  Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SH-216, Hart Senate Office Building, the Honorable Jay 
Rockefeller, Chairman of the Committee, presiding.
    Committee Members Present: Senators Rockefeller, Feinstein, 
Wyden, Bayh, Mikulski, Feingold, Nelson of Florida, Whitehouse, 
Bond, Warner, Hagel, Hatch and Snowe.

 OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, CHAIRMAN, A 
                U.S. SENATOR FROM WEST VIRGINIA

    Chairman Rockefeller. The hearing will come to order.
    I would severely hope that there would be a couple other 
members. I think it would be courteous and in their interest 
and in the national interest if several of our members showed 
up. If they're a few minutes late, that's OK. If they don't 
show up, that's not so OK, and we might have something more to 
say about that.
    In any event, we're presented with the full array of our 
national intelligence structure, and the Intelligence Committee 
meets to hear from this ommunity, intelligence community, about 
security threats facing our Nation.
    It is appropriate that we begin this annual threat hearing 
and that we do it in public. We do it every year. Sometimes 
they've gone on for a long time. What we've done this time is 
to ask each of you, with the exception of the Director, to hold 
your comments to 5 minutes, and it will be very interesting, in 
the case of the CIA, to see if that can actually be done.
    [Laughter.]
    Chairman Rockefeller.  But anyway, you're the folks that 
keep us safe. We in Congress authorize and appropriate funds 
for what you do. The American people have a right to know where 
our resources are going, insofar as that's appropriate, what 
intelligence officials consider to be the greatest threats, and 
what actions our Government is taking to prevent those threats. 
As we've learned many times, our intelligence programs will 
only be successful if the American people are informed. It's a 
relative statement. But they have to feel that they're a part 
of this equation, and that's what helps us get appropriations 
and gets bills passed, hopefully, and makes the process work.
    Today the Committee will want to hear how our intelligence 
community assesses the immediate threats from terrorist 
organizations. We do that each year, starting with the 
continued threat posed by al-Qa'ida.
    I believe this threat has actually grown substantially 
since last year's threat review--I'll be interested if you 
agree--particularly in Afghanistan and Pakistan. I hope to 
focus closely on that threat in today's hearings, and 
throughout the year it will be part of the Vice Chairman's and 
my schedule throughout the year.
    As you know, al-Qa'ida's war against the United States did 
not start on September 11th. It started before that and did not 
end on that tragic day. Since that time, our intelligence 
agencies have been successful in identifying and preventing new 
al-Qa'ida attacks in this country, most of which cannot be 
discussed publicly.
    But progress has been mixed. And unfortunately, many of our 
Government policies have, in fact, hindered our 
counterterrorism activities. After 9/11, the invasion of 
Afghanistan by U.S. and coalition forces drove the Taliban from 
power, had Osama bin Ladin on the run and was on the verge of 
depriving al-Qa'ida of the very sanctuary that it needs in 
order to plot and carry out its murderous designs.
    Then the focus of America's military forces and 
intelligence resources were mistakenly shifted from delivering 
the decisive blow against al-Qa'ida, which is the enemy. 
Instead, these resources were diverted to the invasion of Iraq 
and the overthrow of Saddam Hussein, and one can have arguments 
about that.
    Now, 6.5 years later, after the 9/11 attack, bin Ladin 
remains at large. That is a source of embarrassment and concern 
to all of you. And al-Qa'ida operates in a terrorist safe haven 
along the Afghanistan-Pakistan border from which it trains and 
directs terrorist cells, perhaps with more confidence than 
ever. al-Qa'ida has used this border safe haven to reconstitute 
itself and launch offensive operations that threaten to undo 
the stability of Afghanistan and undermine, if not overthrow, 
the Pakistan Government.
    And tragically, like before 9/11, al-Qa'ida has once again 
secured a base of operations from which to plot and direct 
attacks against the United States. Unfortunately, our continued 
military occupation of Iraq compounds the counterterrorism 
challenge that we face as it is used for terrorist propaganda 
purposes to fuel the recruitment of Islamic jihadists.
    As evidenced by the Madrid and London bombings, violent 
extremism is spreading at an alarming rate and making inroads 
into disaffected populations in Europe and elsewhere. That 
seems to continue to grow. All of this leads to some tough 
necessary questions for our witnesses.
    Why has al-Qa'ida been allowed to reconstitute a terrorist 
sanctuary along the Afghanistan-Pakistan border from which to 
threaten the stability of the region and plot against the 
United States? How is the threat posed by this al-Qa'ida safe 
haven different from the one that al-Qa'ida benefited from 
prior to 9/11?
    How have the terrorist threats facing the governments in 
Kabul and Islamabad changed in the past year? And how willing 
and capable are those governments to go after al-Qa'ida within 
their own borders?
    Are the United States and its allies losing the war of 
ideas to the virulent message of the terrorists? Does the 
continued existence and operation of a separate CIA system for 
terrorists employing secret interrogation techniques undermine 
our moral standing and the willingness of other countries to 
cooperate with us?
    Is our continued military presence in Iraq generating more 
terrorists and more Islamic radicals around the world than we 
are capturing or that we are killing?
    Since last year's worldwide threat review, another 1,000 
American service members have been killed in Iraq, not to speak 
of those who have been wounded externally and internally. Polls 
consistently show that a large number of Iraqis oppose the 
presence of coalition forces. That doesn't seem to deter us.
    The Committee has ongoing scrutiny of intelligence on Iraq, 
and that will continue, mostly in classified session, but the 
public needs to know whether intelligence experts perceive that 
Iraq is moving toward the kind of political reconciliation that 
was the objective of the U.S. surge in the first place and of 
the whole effort in the first place. Is it happening?
    Going beyond the war and terrorist threats of today, the 
Committee is particularly concerned about the proliferation of 
nuclear weapons technology and the threat posed to our security 
by those who possess them and those who may possess them in the 
future.
    I'm particularly concerned about the security and 
safeguarding of weapons and fissile material in Russia and 
states of the former Soviet Union. This is something I have 
expressed concern about for several years, and many of us have, 
and something our Government must address but is not putting up 
the money to address.
    But potential threats to our homelands are not just about 
Al- Qa'ida and nuclear proliferation. Threats can come in 
unfamiliar ways. And because our society is very complex, we 
are vulnerable to threats that we may not fully appreciate. In 
this regard, I'm very concerned about the potential of 
cyberattacks--they have already been executed--and our ability 
to protect our critical infrastructure. This is something that 
we have discussed before. Cybersecurity is a growing subject of 
importance that will be addressed by the Committee in detail, 
intensely, in the coming weeks.
    Climate change also poses a long-term threat to us in ways 
that we are only beginning to understand. More attention needs 
to be paid to it. I'm extremely gratified that the intelligence 
community is grappling seriously with the issue. We eagerly 
await the National Intelligence Council's assessment of the 
national security impact of climate change due out this spring.
    Before introducing the witnesses who are sitting in front 
of us, I want to pay tribute to a large number of anonymous 
heroes who are risking their lives abroad or working long hours 
in headquarters to collect the intelligence and provide the 
analysis on which your testimony today is based.
    We are privileged in this Committee of seeing what most of 
the public does not. We are constantly impressed with the 
dedication and the professionalism of the intelligence 
officials that we encounter. Americans can be proud of the men 
and women of the U.S. intelligence community. Indeed, our 
occasional and, I hope, constructive criticisms are a measure 
of the high standards that we routinely expect.
    Now, let me introduce the distinguished witnesses before us 
today, and then I will turn to the distinguished Vice Chairman. 
And they will speak in this order, please.
    Admiral Michael McConnell, Director of National 
Intelligence; General Mike Hayden, Director of the Central 
Intelligence Agency; Mr. Randall Fort, Assistant Secretary of 
State for Intelligence and Research; Mr. Robert Mueller, 
Director of the Federal Bureau of Investigation; and Lieutenant 
General Michael Maples, Director of the Defense Intelligence 
Agency.
    It's worth nothing that Director McConnell's remarks have 
been coordinated with his intelligence colleagues, who will 
nonetheless have a chance to offer their own comments after his 
statement. I believe that this procedure and format is not only 
symbolically important, it gives real meaning to the structural 
reforms that were instituted under the 2004 Intelligence Reform 
Act. We now have a DNI who authentically represents and 
oversees the 16 intelligence agencies but who does so without 
suppressing their individual perspectives or eliminating their 
necessary independence.
    I now turn to Vice Chairman Bond.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Vice Chairman Bond. Thank you very much, Mr. Chairman. I 
appreciate your holding this hearing. As always, it's a very 
sobering reminder to all of us in public of the kinds of 
threats our Nation faces and our men and women abroad, military 
and civilian, face.
    We need to know about this. Obviously, we discuss much of 
it in the classified hearings, but this gives us an opportunity 
to lay out what you see as the challenges.
    Lots has changed since last year's worldwide threat 
hearing. Everybody was saying that the situation in Iraq was 
grave and we were looking at failure. Now, a year after the 
surge--and, most importantly, General Petraeus's leadership in 
adopting a counterinsurgency strategy to clear, hold and 
build--we're seeing marked changes. And American military men 
and women are coming home, returning on success, which is, I 
believe, the right way for them to return. We're not out of the 
woods yet. We're continuing to train and equip the military and 
security forces.
    Our goal must be to establish a reasonably secure and 
stable Iraq from which the Iraqis can develop their own system 
of government. That stability and security is necessary to 
prevent them from falling into chaos, genocide, potentially 
region-wide civil war, and giving a real safe haven to al-
Qa'ida, which they do not have, in the mountain caves where 
they must reside now.
    I think it's fitting to remember that David Kay and his 
Iraqi Study Group said, after they went in and examined some of 
the intelligence failures, that Iraq was a far more dangerous 
place even than we knew, because of the terrorists running 
wild, the chaos in that country, and the ability to provide 
weapons of mass destruction.
    We do realize that we must maintain that commitment there, 
but we are concerned about the situation in Afghanistan. The 
security situation has deteriorated, and we are adding 3,000 
additional Marines. It would be very helpful if our NATO allies 
lived up to their commitments. The failure of the NATO allies 
to do their jobs or to send over troops who can't go in harm's 
way, well, that's nice. The business of sending troops is to 
send them into dangerous places to pacify them.
    Decades of civil war and other war have devastated 
Afghanistan, but it appears--and I'm looking forward to hearing 
your view--that Afghanistan has passed the tipping point, where 
the Taliban and their terrorist allies are not going to take 
the country back. They will continue to kill, maim and destroy.
    But we can't afford to ignore situations in other parts of 
the world, and I will look forward to hearing about national 
threats--North Korea, Iran, Syria, Venezuela, the Chinese 
military power, instability in Africa.
    I want to emphasize one item that the Chairman said, that 
we need to look at how we're winning the hearts and minds, 
something I believe is very important, something that should be 
done primarily by the State Department, by other agencies of 
Government.
    But I commend the U.S. Army, which has done an excellent 
job in showing how clear, hold and build works in the Mindanao, 
southern Philippines region. I'm proud to say that a Missouri 
National Guard unit is deploying to Afghanistan with 
agricultural specialists to bring modern agricultural 
techniques. These are the kinds of things that we must be doing 
to help those countries which are on the verge of either opting 
for democracy, human rights, and free markets, or going the 
terrorist route.
    Congressional oversight, obviously, is our part of the job. 
We have reviewed the failures before 9/11. And I would say that 
we have made tremendous progress.
    I believe, Mr. Chairman, that this distinguished group of 
leaders that we have before us today is the finest working team 
that the intelligence community or any intelligence community 
has had. Now we just need to make sure that everybody is 
playing on the team.
    I was not a supporter of the intelligence reform, because 
while I thought it was a good idea, I thought we gave the DNI 
all kinds of responsibility and too little authority. But the 
Director has shown positive leadership, management and 
oversight. And next week we look forward to receiving a report 
from him on a list of legislative recommendations for 
intelligence reform, particularly how we can ensure in statute 
that the working relationships that have been developed, 
because of the great cooperation among the people at this table 
and your top leaders in your agency, have been able to achieve.
    Another area of congressional oversight, obviously, is the 
FISA amendments, which are on the floor. And the Chairman and I 
are delighted to be able to take a few hours off and talk with 
you. We believe that the bipartisan bill that the Senate 
Intelligence Committee passed with the two changes, which we 
have worked out with your experts, is the best way to go.
    Another important reform issue is something I've been very 
much concerned on, and that's the leaking of intelligence. Our 
most sensitive means of collection appear in the papers. I 
believe General Hayden said in confirmation hearings in 2006, 
when I asked him about the collection of intelligence, I think 
he said, ``It's almost Darwinian. The more we put out there, 
the more we're going to kill and capture only the dumb 
terrorists.'' And that is a frightening thing.
    Obviously, a strong free press is an important safeguard. 
We must, however, deal with those Government officials who, for 
their own personal ends, either profit or notoriety, leak 
information. The irresponsible officials have provided far too 
much sensitive, classified information. And I think, as we see 
more and more of them in orange jumpsuits, there will be a much 
greater disincentive to share that information.
    Obviously, the journalists will have to make up their minds 
as what they want to cover. But I would just urge my friends 
and colleagues in the fourth estate, if an irresponsible 
bureaucrat somewhere in the operation tells you the 
intelligence community has detected an event in country X, and 
it tells you how the community detected the event, and you feel 
you must print the story, consider leaving the details of the 
``how'' out. That's really interesting only to a very select 
few, but primarily the terrorists and those who need to know 
how we get our information, not as much as ``what.''
    Finally, on analysis, I believe we have to take a continued 
look at the analytical process. I think we have a long ways to 
go, as I've indicated. I thought the Iran NIE was very 
disappointing, not because of what it said, not because of the 
fact that significant new information had been discovered, but 
how it was said and how it was used for public release. I don't 
believe that NIEs should be used as political footballs, which 
they've become. I think they should be confidential assessments 
for policymakers in the intelligence community, the military, 
the executive branch, and Congress.
    The main news in the NIE was the confirmation that Iran had 
a nuclear weapons program, not that it had halted it 
temporarily, for all we know, in 2003, and other sources say 
they question that, and some believe they've restarted it. But 
the NIE offered no confidence in any intelligence on that, 
besides stating with moderate confidence that it had not 
restarted last summer. The French defense minister said 
publicly that he believes the program has restarted.
    Now, if our Government comes to that assessment, then we 
have set ourselves up to release another NIE or leak 
intelligence, because this last one has given a false sense of 
security. Once we start announcing the NIEs, we may have to 
change them if the situation changes. I think that, to put it 
in summary, the NIE, as released, put the emphasis on the wrong 
syllable. It should have stated that this was a confirmation. 
We have information that one aspect--one aspect--the 
weaponization programs, were shut down, but the long pole in 
the tent, the nuclear enrichment, had not.
    So that's my humble suggestion, that the next NIE be 
reviewed to see what is really important for the broader 
intelligence community efforts.
    We will do everything we can in Congress to help the 
intelligence community get the information and the support you 
need, and the resources, and we look forward to being able to 
work in a nonpartisan manner. And we continue to expect that 
the community fulfill its responsibility when it provides us 
intelligence in a nonpolitical manner.
    I look forward to hearing from our witnesses. They are, as 
I said, Mr. Chairman, some of the best minds in the business.
    Chairman Rockefeller.  They are, indeed.
    And they will start with Director McConnell for 20 minutes.

STATEMENT OF ADMIRAL J. MICHAEL McCONNELL, USN (RET.), DIRECTOR 
                    OF NATIONAL INTELLIGENCE

    Director McConnell.  Thank you, Mr. Chairman, Vice Chairman 
Bond, members of the Committee. Thank you for the opportunity 
to address threats to the national security. I have submitted 
longer, classified and unclassified statements for the record 
that will go into more detail than I can cover in the time 
allotted here.
    Before I address specific threats, I want to address an 
issue just raised by Senator Bond. It's an issue of importance 
to the community in providing warning and protection to the 
Nation. In doing so, I want to thank you, Chairman Rockefeller 
and Ranking Member Bond, and the entire membership of the 
Committee, for the leadership and hard work over many months--
and I would emphasize over many months--in drafting and passing 
draft legislation that governs and enables this community.
    Your bill, draft bill, provides the needed updates to the 
Foreign Intelligence Surveillance Act. We refer to it, of 
course, as FISA. The authorities granted by the amendments to 
FISA, the Protect America Act, which temporarily closed some 
gaps in our ability to conduct foreign intelligence, are 
critical to our intelligence efforts to protect the Nation from 
current threats.
    Briefly, some of the most important benefits from the bill 
that was signed last August include: better understanding of 
international al-Qa'ida networks; more extensive knowledge of 
individual networks, including personalities and planning for 
suicide bombers; and, most importantly, greater insight into 
terrorist planning that has allowed us to disrupt attacks that 
intended to target U.S. interests.
    Expiration of the Act would lead to the loss of important 
tools the intelligence community relies on to discover the 
plans of those who wish us harm, in fact, those that have sworn 
to inflict mass casualties, greater than 9/11, on the country.
    As reflected in your draft legislation in the conference 
report, merely extending the Protect America Act without 
addressing retroactive liability protection for the private 
sector will have far-reaching consequences for our community. 
Lack of liability protection would make it much more difficult 
to obtain the future cooperation of the private-sector partners 
whose help is so vital to our success.
    Over the past several weeks, proposals to modify your draft 
bill have been discussed. At the request of Members, the 
Attorney General and I have submitted a detailed letter that 
addresses each of those issues, and it will be delivered to you 
this morning. I would ask Members to consider the impacts of 
such proposals on our ability to warn of threats to the 
homeland security and on our interests abroad.
    As my testimony will describe, the threats we face are 
global, complex and dangerous. We must have the tools to enable 
the detection and disruption of not only terrorist plots, but 
other threats to the country.
    In turning to the threats facing the country today, let me 
say that the judgments that I will offer are based on the 
efforts of thousands of patriotic, highly skilled 
professionals, many of whom serve in harm's way. Mr. Chairman 
and Mr. Vice Chairman, I appreciate your comments about the 
personnel in our community and their professionalism.
    It is my sincere hope that all of the Congress and the 
American people will see these men and women as the skilled 
professionals that they are, with the highest respect for our 
laws and our values, and dedicated to serving the Nation with 
courage, to seek and speak the truth in the best interests of 
the Nation.
    Let me start by highlighting a few of the top 
counterterrorism successes in the past year. There were no 
major attacks against the United States, nor against most of 
our European, Latin American, and East Asian allies in all of 
2007. And that was no accident.
    In concert with Federal, State and law enforcement 
officials, our community helped disrupt cells plotting violent 
acts. For example, last summer, we and our allies unraveled 
terrorist plots linked to al-Qa'ida and its associates in both 
Denmark and Germany. We were successful because we were able to 
identify the key personalities involved in the planning. We 
worked with our European partners to monitor the plotters and 
to disrupt their activities, one of which was to be an attack 
on a U.S. facility.
    Most recently, European authorities arrested terrorists 
planning suicide attacks in Spain. The attacks were planned for 
Spain, France, U.K., and other European nations.
    In addition, our partners throughout the Middle East and 
elsewhere continued to aggressively attack terrorist networks 
recruiting, training and planning to strike American interests.
    Al-Qa'ida in Iraq--or as we slip into in our acronyms, 
AQI--suffered major setbacks last year. Hundreds of AQI 
leadership, operational, media, financial, logistical, weapons, 
and foreign fighter facilitator cadre have been neutralized. In 
addition, the brutal attacks unleashed by AQI and other al-
Qa'ida affiliates against Muslim civilians have tarnished al-
Qa'ida's self-styled image as the extremist vanguard.
    Nonetheless, al-Qa'ida remains the preeminent terror threat 
against the United States, both here at home and abroad. 
Despite our successes over the years, the group has retained or 
regenerated key elements of its capability, including its top 
leadership, operational lieutenants, and a de facto safe haven, 
as was mentioned by the Chairman, in the Pakistani border area 
with Afghanistan known as the Federally Administered Tribal 
Areas, or FATA.
    Pakistani authorities who are our partners in this fight--
with the Pakistanis, we have been able to neutralize or capture 
more of the terrorists than with any other partner. They 
increasingly are determined to strengthen their 
counterterrorism performance, even during a period of 
heightened domestic political tension exacerbated by the 
assassination of Benazir Bhutto and other suicide bombings.
    At least 865 Pakistani security forces and officials were 
killed by suicide bombs and improvised explosive devices in 
2007, over 865. In addition, almost 500 security forces and 
civilians were killed in armed clashes, for a total of over 
1,300 killed in 2007 in Pakistan. Total Pakistani casualties in 
2007, including the number of injured security forces and 
civilians, exceeded the cumulative total of all the years 
between 2001 and 2006.
    Al-Qa'ida's affiliates also pose a significant threat. As 
noted, al-Qa'ida in Iraq remains al-Qa'ida's central, most 
capable affiliate. We are increasingly concerned that, even as 
coalition forces inflict significant damage on al-Qa'ida inside 
Iraq, they may deploy resources to mount attacks outside that 
country.
    Al-Qa'ida's North Africa affiliate, known as al-Qa'ida in 
the Lands of Islamic Maghreb, that group is active in North 
Africa and is extending its target set to include U.S. and 
Western interests. Other al-Qa'ida regional affiliates in the 
Levant, the Gulf, Africa and Southeast Asia maintained a lower 
profile in 2007, but remain capable of conducting strikes 
against American interests.
    Homegrown extremists, inspired by militant Islamic 
ideology, but without operational direction from al-Qa'ida, are 
on an evolving course for danger inside the United States. 
Disrupted plotting last year here at home illustrates the 
nature of the threat inside the country. In addition, our 
allies continue to uncover new extremist networks inside Europe 
for their version of the homegrown threat.
    The ongoing efforts of nation states and terrorists to 
develop and acquire dangerous weapons and the ability to 
deliver those weapons constitute the second major threat to our 
safety. After conducting missile tests and its first nuclear 
detonation in 2006, North Korea returned to the negotiating 
table last year.
    Pyongyang has reaffirmed its September 2000 commitment to 
full denuclearization. They've shut down their nuclear 
facilities in Yongbyon, and they are in the process of 
disabling those facilities. But North Korea missed the 31 
December deadline for a full declaration of its nuclear 
programs.
    While Pyongyang denies a program for uranium enrichment, 
and they deny their proliferation activities, we believe North 
Korea continues to engage in both. We remain uncertain about 
Kim Jong Il's commitment to full denuclearization, as he 
promised in the six-party agreement.
    I want to be very clear in addressing Iran's nuclear 
capability. First, there are three parts to an effective 
nuclear weapons capability. First is the production of fissile 
material. Second, effective means for weapons delivery, such as 
ballistic missile systems. And third is the design and 
weaponization of the warhead itself.
    We assess in our recent National Intelligence Estimate that 
warhead design and weaponization work was halted, along with a 
covert military effort to produce fissile material. However, 
Iran's declared uranium enrichment efforts that will enable the 
production of fissile material continues. Production of fissile 
material is the most difficult challenge in the nuclear weapons 
production cycle.
    Also, as in the past, Iran continues its effort to perfect 
ballistic missiles that can reach both North Africa and Europe.
    Therefore, we remain concerned about Iran as a potential 
nuclear weapons threat. The earliest possible date Iran could 
technically be capable of producing enough fissile material for 
a weapon is late 2009, but we judge that to be unlikely.
    As our Estimate makes clear, Tehran halted their nuclear 
weapons design-related activities in response to international 
pressure, but is keeping open the option to develop nuclear 
weapons. If Iran's nuclear weapons design program has already 
been reactivated or will be reactivated, it will be a closely 
guarded secret, in an attempt to keep us from being aware of 
its true status. The Iranians until this point have never 
admitted the secret nuclear weapons design program which was 
halted in 2003.
    Iran also remains a threat to regional stability and to 
U.S. interests throughout the Middle East. This is because of 
its continued support for violent groups such as Hamas and 
Hezbollah and its efforts to undercut pro-Western actors, such 
as those in Lebanon. Iran is pursuing a policy intending to 
raise the political, economic and human costs of any 
arrangement that would allow the United States to maintain 
presence and influence in that region.
    Mr. Chairman, you mentioned the cyber threat. I would just 
like to make a few comments and then, as you noted, we'll have 
a hearing on that specific subject later.
    The U.S. information technology infrastructure, which 
includes telecommunications, computer networks and systems, and 
the data that reside on those systems is critical to virtually 
every aspect of our modern life. Threats to our IT 
infrastructure are an important focus for this community.
    We assess that nations, including Russia and China, have 
long had the technical capabilities to target U.S. information 
systems for intelligence collection. Think of that as passive. 
The worrisome part is, today, they also could target 
information infrastructure systems for degradation or 
destruction.
    At the President's direction in May of last year, an 
interagency group was convened to review the threat to the 
United States and identify options. This tasking was fulfilled 
with the issuance of a Presidential directive earlier this 
year. We will have more to say about that in a hearing later in 
the week or questions, if you ask later today.
    Turning to Iraq, the security situation in Iraq continues 
to show signs of improvement. Security incidents country-wide 
have declined significantly, in fact, to their lowest levels 
since February 2006, which followed the Samarra Golden Mosque 
bombing. Monthly casualty fatalities nationwide have fallen by 
over half in the past year.
    Despite these gains, however, a number of internal factors 
continue to undermine Iraq's security. Sectarian distrust is 
still strong throughout Iraqi society. AQI remains capable of 
conducting destabilizing operations and spectacular attacks, as 
we have seen recently, despite the disruptions to their 
network.
    Intracommunal violence in southern Iraq has spread beyond 
mere clashes between rival militia factions. And while 
improving significantly over the past year, the ability of the 
Iraqi security force to conduct effective, independent 
operations, independent of coalition forces, remains limited in 
the present timeframe.
    Bridging differences between competing communities and 
providing effective governance are critical to achieving a 
successful state. While slow, progress is being made, and we 
have seen some economic gains and some quality of life 
improvements for Iraqis. But improvements in security, 
governance and the economy are not ends in themselves; rather, 
they are means for restoring Iraqi confidence in a central 
government that works and easing the sectarian distrust.
    Afghanistan. In 2007, the number of attacks in 
Afghanistan's Taliban-dominated insurgency exceeded the 
previous year, in part because the coalition and Afghan forces 
undertook many more offensive operations, stimulating that 
contact. Efforts to improve governance and extend development 
were hampered by the lack of security in some areas and 
limitation of the Afghan Government's capacity to do so.
    Ultimately, defeating the insurgency will depend upon the 
government's ability to improve security, deliver effective 
governmental services, and expand development for economic 
opportunity.
    The drug trade is one of Afghanistan's greatest long-term 
challenges. The insidious effects of drug-related criminality 
continue to undercut the government's ability to assert its 
authority, develop a strong rule-of-law-based system, and to 
build the economy. The Taliban and other insurgent groups, 
which operate in the poppy-growing regions, gain at least in 
part some financial support for their ties to the local opium 
traffickers.
    Turning to the Levant around the Mediterranean, the regime 
in Damascus seeks to undermine Lebanon's security by using 
proxies and harboring and supporting terrorists, to include 
Hezbollah. Syria also remains opposed to progress in the Middle 
East peace talks. Since the assassination in 2005 of Rafik 
Hariri, eight additional Lebanese leaders or officials have 
been killed in an effort to intimidate the 14 March coalition 
and alter the political balance in the Lebanese legislature.
    In the Palestinian Territories, the schism between Abbas 
and Hamas escalated after Hamas seized control of the Gaza last 
summer. Although feeling increased pressure over the weakening 
situation in the economy and an accelerating humanitarian 
crisis, Hamas remains in charge of the Gaza Strip.
    In the West Bank, we see signs of progress by Fatah, 
including renewed security and law enforcement cooperation with 
Israeli forces in taking more effective action against Hamas.
    Turning now to Russian and Chinese military modernization, 
increases in defense spending have enabled the Russian military 
to begin to reverse the deep deterioration in its capabilities 
that began before the collapse of the Soviet Union. The 
military still faces significant challenges, however, 
challenges such as demographic trends and health problems. In 
addition, conscription deferments erode available manpower. And 
Russia's defense industry suffers from the loss of skilled 
personnel.
    China's military modernization is shaped, in part, by the 
perception that a competent, modern military force is an 
essential element of great power status. Improving Chinese 
theater-range ballistic missile capabilities and cruise missile 
capabilities will put U.S. forces at greater risk from 
conventional weapons. In addition, the regime seeks to 
modernize China's strategic nuclear forces to address concerns 
about the survivability of those systems.
    If present trends continue, the global development of 
counterspace capabilities continues. Russia and China will have 
an increasing ability to target U.S. military and intelligence 
satellites and command and control systems in the future.
    Turning now to Venezuela and Cuba, the referendum on 
constitutional reform in Venezuela last December was a stunning 
setback for President Chavez and it may slow his movement 
toward authoritarian rule. The referendum's outcome has given a 
psychological boost to Chavez's opponents.
    However, high oil prices probably will enable Chavez to 
retain the support of his constituents, allow him to continue 
co-opting the economic elite, and stave off the consequences of 
his financial mismanagement. Without question, the policies 
being pursued by President Chavez have Venezuela on a path to 
ruin their economy.
    The determination of Cuban leadership to ignore outside 
pressure for reform is reinforced by the more than $1 billion 
net annual subsidy that Cuba receives from Venezuela. We assess 
the political situation in Cuba probably will remain stable 
during at least the initial months following Fidel Castro's 
death. Policy missteps or the mishandling of a crisis by the 
leadership could lead to political instability, raising the 
risk of mass migration.
    Persistent insecurity in Nigeria's oil-producing region, 
the Niger Delta, threatens U.S. strategic interests in sub-
Saharan Africa. The president of that country has pledged to 
resolve the crisis in the delta but faces many, many challenges 
that would make progress difficult.
    Ongoing instability and conflict in other parts of Africa 
are significant threats to U.S. interests because of their high 
humanitarian and peacekeeping costs, the drag on democratic and 
economic development, and their potential to get much, much 
worse.
    Violence in Kenya, after a close election marred by 
irregularities, represents a major setback in one of Africa's 
most prosperous and democratic countries.
    The crisis in Sudan's Darfur region shows few signs of 
resolution, even if the planned U.N. peacekeeping force of 
26,000 is fully deployed.
    The Ethiopian-backed transitional Federal Government in 
Somalia is facing serious attacks by opposition groups and 
extremists. It probably would flee Mogadishu or it would 
collapse if the Ethiopians were to withdraw.
    Tensions between the longtime enemies Ethiopia and Eritrea 
have also increased over the past year. Both sides are now 
preparing for war.
    In conclusion, the issues that I've touched on, merely 
touched on, covered much--and in my statement for the record, 
they are covered in much more detail. They confront us on many, 
many fronts.
    The intelligence community is fully committed to arming 
policymakers, to include this body, our war fighters and our 
law enforcement officials with the best intelligence and 
analytic insight that we can provide. This is necessary to help 
you all make the decisions and take the actions that will 
protect American lives and American interests both at home and 
abroad.
    That completes my prepared statement, Mr. Chairman. I look 
forward to your questions.
    [The prepared statement of Director McConnell follows:]



    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Rockefeller.  Thank you, sir.
    Director Hayden?

STATEMENT OF GENERAL MICHAEL V. HAYDEN, USAF, DIRECTOR, CENTRAL 
                      INTELLIGENCE AGENCY

    General Hayden.  Thank you very much, Mr. Chairman. I will 
accept your 5-minute challenge that you laid out earlier.
    Let me echo the words of Director McConnell in expressing 
our gratitude for your comments about the men and women of the 
American intelligence community. It's a message of thanks and 
respect that we can't say often enough. So thank you for 
mentioning that.
    Now, Admiral McConnell has laid out a fairly complete 
overview of the threats and opportunities facing the United 
States in the world in which we find ourselves. I know that my 
colleagues up here--Mike Maples and Director Mueller and 
Randy--will offer their views of these issues from the 
perspective of their departments.
    I, however, lead an analytical workforce that is 
nondepartmental, orchestrated and architected that way by the 
Congress in the Intelligence Reform Act, so much of the work 
that has gone into creating Admiral McConnell's statement is 
the product of an intimate relationship between his National 
Intelligence Council and our analytic workforce.
    And so I guess my comment on the worldview that Director 
McConnell has laid out is ``me, too,'' because it has been, 
again, crafted by the same workforce.
    What I'd like to do, rather than repeat some of the 
highlights of the Admiral's overview, is just take a few 
minutes to point out some of the ways we're attempting to 
respond to the world as he has outlined it here.
    Our core missions remain the same. The means by which we 
have to achieve those missions have changed radically. For 
example, in the primary threat that the Director emphasized, 
the global terrorist movement, we face an enemy that is clearly 
ruthless. But it's also one that's very adaptive, one who shuns 
traditional hierarchical structures, who learns from mistakes 
and therefore demands that we be no less resilient and 
creative. And so we at this agency and across the intelligence 
community are trying to achieve just that.
    We're promoting, for example, new methods of collecting 
intelligence. In addition to our unilateral capacities, we're 
reshaping our relationships and deepening our partnerships with 
foreign liaison. Steve Kappes, our Deputy, and I have visited 
about 40 of our liaison partners over the last 15-month period 
to kind of underscore how important these relationships are.
    We're also getting larger. The President has directed, and 
with your support, we are expanding the number of our core 
collectors and our analysts by 50 percent. And we're also 
trying to develop technological innovations that will allow us 
to penetrate the hardest targets.
    Now, in addition to doing better that which we do, we're 
also trying to get our components within CIA to reinvent the 
way they do their things. In other words, we're trying to 
create greater cooperation and collaboration not just within 
the agency but between the agency and the other parts of the 
intelligence community.
    Now, some of the steps in this regard are fairly mundane. 
We're just taking a little bit longer in a common agency 
acculturation experience before our officers move out into the 
DI or into the National Clandestine Service or the Directorate 
of Support or Science and Technology.
    We're also trying to make more routine assignments of our 
officers outside normal agency boundaries, and we are strong 
supporters of the Admiral's program for joint duty, wherein 
agency officers, if they want to be senior leaders in our 
community, have to have time in service outside the walls and 
the organizational structure of the Central Intelligence 
Agency.
    Now, the Admiral emphasized the variety of threats that our 
Nation faces and pointed out that there is no threat more 
deadly than that of global terrorism. And I want to assure the 
Committee that CIA is using all the tools available to it by 
law to fight that threat. And, as the Admiral suggested, we 
have some successes to report during the year we just 
completed. In Southeast Asia, for example, working with 
liaisons, we've been able to act upon leads we've provided them 
to capture or kill multiple terrorist group leaders.
    Our intelligence actually led directly to the foiling of a 
planned bombing in a crowded market in Southeast Asia last 
summer that would have led to mass casualties.
    Director McConnell has already pointed out the success 
we've enjoyed in Europe in 2007--German authorities arresting 
three Islamic Jihad Union operatives trained in Pakistan. On 
the same day, Danish authorities detained individuals that were 
directly linked to al-Qa'ida and who were preparing explosives 
for use in a terrorist attack.
    Our agency works vigorously with the American military in 
Iraq and Afghanistan to protect the lives of our soldiers. And 
again, there are successes to report. Acting on our 
intelligence, U.S. forces killed a senior al-Qa'ida leader who 
was responsible for the movement of foreign fighters into Iraq.
    And I believe the Committee is well aware a windfall of 
that operation was the capturing of documentary evidence that 
has given us our best insight into the movement of foreign 
fighters into Iraq that we've ever had.
    More recently, in October, acting on CIA intelligence, U.S. 
military forces raided a home in Diyala Province north of 
Baghdad and captured the largest number of improvised explosive 
devices that the American military has captured in any one 
cache to date.
    That's success on our immediate requirements. That's 
winning what we refer to as the close battle. You've asked us--
you've demanded of us--to be prepared for the future as well, 
to be able to operate against enemies in what I'll describe as 
the deep battle, not the enemy coming in over the perimeter 
wall right now, but the one who'll be there directly. And what 
are the capabilities that we will have to have in order to 
defeat them?
    We had a session in our bubble, which is our auditorium, 
out at the agency that I know many of you have visited. We had 
it in early January. And I used two words with our workforce, 
enhance our current capabilities, get better at what we're 
doing, and then sustain them, to have the legs to be able to do 
this for a long period of time.
    I used a racing metaphor. In essence, I've said our 
community, but CIA in particular, has, in essence, been running 
a 4:40. And one of the worst things you can be told running a 
4:40 is to come out of that last turn and see a coach with a 
clipboard and a stopwatch saying, ``Now it's time for the 100-
yard dash.''
    We have got to build some ability for longevity, for 
sustenance, for sustaining into our community. And from time to 
time, that may mean difficult decisions to pull back just a 
little bit in current activity in order to build the capacity 
you need to have for, literally, the long run.
    So in addition to strengthening core capabilities and 
integrating those capabilities better on campus and throughout 
the community, we want to expand those capabilities so that we 
can sustain those capabilities so that you and the American 
people have them to call on over the long term.
    One of the things we're doing to boost capabilities--and I 
have to be a bit indirect here but will be happy to go into it 
in more detail in closed session--is a major initiative to 
extend our operational reach by supporting what I'll call 
creative deployments that aren't limited by traditional cover 
or operational constraints.
    We're also setting up forward-deployed analytic cells in 
key regional centers abroad that will allow our analysts to 
seek ground truth not inside the Washington Beltway but out 
there in the field. And I know that many of you in your trips 
have had a chance to visit these forward-deployed analytic 
cells, and we view them to be an unmitigated success.
    We're pursuing a range of initiatives across the community 
to be better integrated.
    Chairman Rockefeller.  Director Hayden, I hope you'll wind 
up.
    General Hayden.  I understand. I've just got the hook, Mr. 
Chairman.
    We celebrated CIA's 60th anniversary last year. We 
reflected on that which has gotten us to where we are today. 
We've got a large new population out there. I think the 
Committee knows 50 percent of our folks have been hired since 
9/11.
    We used the occasion of our 60th anniversary to try to move 
the values that have motivated this agency over such a long 
period of time into this new cohort of agency officers. I think 
you'll find us to be innovative and collaborative, and I think 
you'll find us aggressively using all the lawful tools provided 
to us by you in the defense of the Republic.
    Thank you, Mr. Chairman.
    Chairman Rockefeller.  Thank you, sir.
    Secretary Fort?

  STATEMENT OF RANDALL FORT, ASSISTANT SECRETARY OF STATE FOR 
                   INTELLIGENCE AND RESEARCH

    Mr. Fort.  Chairman Rockefeller, Vice Chairman Bond, 
members of the Committee, thank you for the opportunity to 
present the perspective of the State Department's Bureau of 
Intelligence and Research on the threats to U.S. national 
security.
    Let me start by concurring with and fully endorsing the 
joint statement for the record submitted by Director McConnell 
which he summarized in his remarks and to which we had a chance 
to contribute.
    Today I will focus my remarks on INR's efforts to provide 
intelligence support to the Secretary of State and other 
department principals as they pursue diplomatic solutions to 
key U.S. foreign policy challenges.
    At a recent speech to the World Economic Forum, Secretary 
Rice said that, ``America has no permanent enemies because we 
harbor no permanent hatreds.'' And she spoke of diplomacy as 
that which can, if properly conducted, ``make possible a world 
in which old enemies become, if not friends, then no longer 
adversaries.''
    It is because of our firm belief in the potential of 
diplomacy that we strive to achieve peace in the Middle East, 
that we can imagine a better relationship with a nuclear-free 
North Korea, that we envision stable democracies in Iraq and 
Afghanistan, and that we aid Pakistan in its struggles to root 
out extremism.
    A key intelligence community imperative, especially so for 
INR, is to provide intelligence analysis that enables diplomacy 
to achieve policy solutions. Indeed, intelligence without 
policy is energy without movement. More than any other 
intelligence community agency, INR is charged with directly 
supporting diplomats in the conduct of diplomacy.
    Because of that mission, our analytic focus is nearly 
always strategic and focused on the Secretary's unique needs 
for situational awareness and support that shrinks policymaker 
uncertainties and expands understanding of opportunities. 
Successful diplomacy demands the best possible understanding of 
political attitudes, relationships and capacities in the 
countries where diplomacy is practiced. INR makes significant 
contributions to the U.S. Government's collective understanding 
of complex and fast-changing political and security 
environments in our top diplomatic and intelligence priority 
areas.
    In Afghanistan, for example, our analytic efforts focused 
less on tactical battlefield considerations and more on the 
national, political, economic, social and demographic factors 
that influence the survivability of the Karzai government and 
on the influence of neighbors and other international actors.
    In Pakistan, we support the pursuit of stability and 
democracy while strengthening the U.S.-Pakistan partnership for 
combating terrorism.
    Our work has facilitated the policy decisions of our 
Secretary as she pursues our goals of democratization, 
reconciliation between Afghanistan and Pakistan, and a combined 
determination to fight the cross-border terrorism that plagues 
both countries.
    The President has pledged to do everything possible to help 
the Israelis and Palestinians achieve a peace agreement that 
will define a Palestinian state by the end of 2008. INR has 
worked intensively, especially since this past fall's run-up to 
the Annapolis conference, to provide the Secretary and her 
senior Middle East staff with information and analysis on a 
number of critical issues.
    INR's Iraq team works closely with policymakers in the 
department to provide analytic support for our efforts to 
promote reconciliation among Iraqis and to negotiate a long-
term security agreement with Iraq. At the local level, INR 
public survey data often provides unique insights into opinions 
across and within regions of Iraq, data which is keenly 
appreciated by provincial reconstruction teams working to build 
good governance from the ground up.
    On Iran, we have been an active contributor to intelligence 
community analysis on key Iranian issues and independently 
produce strategic analyses that offer the Secretary insights 
into key policy challenges.
    Our Korea team is an integrated group of all-source 
analysts who cooperate closely with our intelligence community 
colleagues to provide comprehensive support for the six-party 
talks. This is an area where both political and technical 
expertise play important roles, and we work with our 
negotiators to ensure they have the best possible intelligence 
information available, both from INR and the intelligence 
community as a whole, regarding a wide range of intelligence 
community activities.
    INR's writ is particularly broad because it mirrors the 
Secretary's global responsibilities. So we focus not only on 
headline topics, but also on nations and issues that may appear 
to lack urgency until a crisis or catastrophe places them front 
and center on the world stage. The U.S. has diplomatic 
relations with 189 countries and maintains 267 diplomatic 
missions globally. Therefore, we must maintain the capacity to 
respond with timely, informed and actionable intelligence to 
support that diplomatic footprint.
    In addition to our all-source analysis, INR provides 
tailored support to diplomacy through our outreach activities. 
The DNI has identified INR as its executive agent for outreach 
in the community, in part because of our extensive polling and 
conference capabilities.
    Our polling results offer policymakers especially precise 
understanding of popular views that help define both the policy 
limits and possibilities in overseas political environments. 
And our conferences annually convene thousands of academic, 
think-tank, and other nongovernmental experts to provide 
insights and alternative views for our policymakers.
    INR is in a unique position to represent both the community 
perspectives to policymakers and to help explain the 
requirements of policymakers to the intelligence community. 
This is a very busy two-way street. The community provides 
significant data to support policy. And in return, the State 
Department diplomatic reporting channel provides copious grist 
for IC analysis.
    In conclusion, let me say that I think INR, both as an 
integral and integrated member of the intelligence community, 
and the Department of State's primary resource for intelligence 
analysis and coordination, remains critical to ensuring that 
policymakers understand both the enduring issues that affect 
our security, as well as the emergence of sudden threats to 
demand swift action.
    INR also celebrated its 60th anniversary last year. As the 
senior civilian intelligence service and as the only direct 
institutional descendent of the Office of Strategic Services 
Research and Analysis Branch, we will continue to work with our 
intelligence and policy colleagues to anticipate, confront and 
respond to these challenges.
    Thank you very much.
    Chairman Rockefeller.  Thank you, Secretary Fort.
    Director Mueller?

STATEMENT OF ROBERT S. MUELLER III, DIRECTOR, FEDERAL BUREAU OF 
                         INVESTIGATION

    Director Mueller.  Chairman Rockefeller and Vice Chairman 
Bond and members of the Committee, today I want to give you my 
brief view of the threats facing us today and generally outline 
the FBI's efforts to combat these threats.
    As you aware, the FBI's top three priorities are 
counterterrorism, counterintelligence, and cyber security. 
These priorities are critical to our national security and the 
FBI's vital work as a committed member of the intelligence 
community. These areas will be the focus of my statement.
    In the counterterrorism arena, I echo Director McConnell's 
assessments that al-Qa'ida continues to present a critical 
threat to the homeland. So, too, are self-directed groups not 
part of al-Qa'ida's formal structure, but which have ties to 
terrorist organizations through either money or training.
    And, finally, we face the challenges presented by a third 
group, and that is self-radicalized, homegrown extremists in 
the United States. While not formally affiliated with a foreign 
terrorist group, they are inspired by those groups' messages of 
violence, often through the Internet. And because they lack 
formal ties, they are often particularly difficult to detect.
    Here at home, through our domestic Joint Terrorism Task 
Forces, and abroad, with our legal attaches and international 
partners, we endeavor to share real-time intelligence to fight 
these three levels of terrorist threats.
    With regard to the counterintelligence threat, protecting 
our Nation's most sensitive secrets from hostile intelligence 
services or others who would do us harm is at the core of the 
FBI mission. We reach out to businesses and universities, and 
we join forces with our intelligence community partners, and we 
work closely with the military and others to help safeguard our 
country's secrets to protect our economic wellbeing and 
national security.
    Cyber threats to our national security and the intersection 
between cyber crime, terrorism, and counterintelligence is 
becoming increasingly evident. Foreign adversaries and 
competitors can remotely observe, target, acquire, and exploit 
our information to their advantage.
    Terrorists recruit, train and plan. They plan their attacks 
using the Internet. Spies sell intellectual property and state 
secrets to the highest bidders. Hackers who used to shut down 
servers around the world for bragging rights may now be linked 
to criminal or terrorist organizations.
    Today, the FBI's cyber investigators focus on these 
threats. And we partner with the Government and industry 
through our sponsorship of InfraGuard, an alliance of nearly 
21,000 individual and corporate members, to help identify, 
investigate and ultimately prevent cyber attacks.
    I am, indeed, mindful of this Committee's abiding interest 
in the FBI's progress in building an intelligence program while 
combating these threats. The FBI has made any number of changes 
since September 11 to enhance our capabilities and to build a 
national security organization on par with our law enforcement 
capabilities.
    Among them, today's intelligence is woven throughout every 
FBI program and every operation, and we have successfully 
broken up terrorist plots across the country, whether it be in 
Portland, Lackawanna, Torrance, California, Chicago, to the 
more recent plots relating to Fort Dix and JFK.
    We have increased and enhanced our working relationships 
with international partners, sharing critical intelligence to 
identify terrorist networks and disrupt planned attacks. We 
have doubled the number of intelligence analysts on board and 
tripled the number of linguists.
    We have tripled the number of Joint Terrorism Task Forces 
from 33 to over 100, combining the resources and expertise of 
the FBI, the intelligence community, the military, and, most 
importantly, State, local and tribal law enforcement.
    In the cyber arena, the FBI will continue its work within 
the intelligence community to counter cyber intrusions by 
foreign actors. Additionally, the FBI's recently formed cyber 
fusion center in Pittsburgh is an example of a collaborative 
public-private alliance linking software companies, Internet 
service providers, merchants and members of the financial 
sector to protect against security breaches.
    We recognize that for the past 100 years of the FBI's 
history our greatest asset has been our people. We are building 
on that history with continued restructuring of our approach to 
intelligence training, for both our professional intelligence 
analyst cadre, as well as new FBI agents at Quantico. And we 
have and will continue to streamline our recruiting and hiring 
processes to attract persons having the critical skills needed 
for continued success.
    In closing, the FBI recognizes that it is a national 
security service, responsible not only for collecting, 
analyzing and disseminating intelligence, but for taking timely 
action to neutralize threats within the homeland to prevent 
another terrorist attack. But in doing so, we also recognize 
that we must properly balance civil liberties with public 
safety in our efforts and will continually strive to do so.
    Mr. Chairman, Mr. Vice Chairman, members of the Committee, 
I appreciate the opportunity to be here today and look forward 
to answering your questions.
    Chairman Rockefeller.  Thank you, Director Mueller.
    Director Maples?

   STATEMENT OF LIEUTENANT GENERAL MICHAEL MAPLES, DIRECTOR, 
                  DEFENSE INTELLIGENCE AGENCY

    General Maples.  Yes, sir. Mr. Chairman, Vice Chairman 
Bond, members of the Committee, I appreciate the opportunity to 
be here today and to represent the dedicated men and women of 
Defense Intelligence and thank you for your comments about 
their service.
    My short remarks will focus on changes in military 
operations and capabilities. There are several general global 
military trends that are of concern, including proliferation of 
the knowledge and technology required to produce weapons of 
mass destruction, longer-range ballistic missiles that are more 
mobile and accurate, improvised devices in suicide weapons, as 
weapons of choice, and the continued development of 
counterspace and cyber capabilities.
    In Iraq, an improved security situation has resulted from 
coalition and Iraqi operations, tribal security initiatives, 
concerned local citizen groups, and the Jaish al-Mahdi freeze 
order. While encouraging, the trends are not yet irreversible.
    Al-Qa'ida in Iraq has been damaged, but it still attempts 
to reignite sectarian violence and remains able to conduct high 
profile attacks. We have seen a decline in the movement of 
foreign terrorists into Iraq.
    The Islamic Revolutionary Guards Corps Quds Force continues 
to provide training and support. And DIA has not yet seen 
evidence that Iran has ended lethal aid.
    Iraqi security forces, while reliant on coalition combat 
service support, have improved their overall capabilities and 
are increasingly leading counterinsurgency operations.
    In Afghanistan, ISAF successes have inflicted losses on 
Taliban leadership and prevented the Taliban from conducting 
sustained conventional operations. Despite their losses, the 
Taliban maintains access to local Pashtun and some foreign 
fighters and is using suicide bombings, improvised explosive 
devices, and small arms to increase attack levels.
    While the insurgency remains concentrated in the Pashtun-
dominated south and east, it has expanded to some western 
areas. The Afghan Army has fielded 11 of 14 infantry brigades, 
and more than one-third of Afghanistan's combat arms battalions 
are assessed as capable of leading operations with coalition 
support.
    We believe that al-Qa'ida has expanded its support to the 
Afghan insurgency and presents an increased threat to Pakistan, 
while it continues to plan, support and direct transnational 
attacks. Al-Qa'ida has extended its operational reach through 
partnerships with compatible regional terrorist groups, 
including a continued effort to expand into Africa. Al-Qa'ida 
maintains its desire to possess weapons of mass destruction.
    Pakistani military operations in the Federally Administered 
Tribal Areas have had limited effect on al-Qa'ida. However, 
Pakistan recognizes the threat and realizes the need to develop 
more effective counterinsurgency capabilities to complement 
their conventional military. At present, we have confidence in 
Pakistan's ability to safeguard its nuclear weapons.
    Iran is acquiring advanced weapons systems and supporting 
terrorist proxies. New capabilities include missile patrol 
boats, anti-ship cruise missiles, surface-to-air missile 
systems, and an extended range variant of the Shahab-3 
ballistic missile. Iran is close to acquiring long-range SA-20 
SAMs and is developing a new Ashura medium-range ballistic 
missile. Lebanese Hezbollah continues to receive weapons, 
training and resources from Iran.
    North Korea maintains large forward-position land forces 
that are, however, lacking in training and equipment. Robust 
artillery and mobile ballistic missiles are being sustained. 
Development of the Taepo Dong-2 continues, as does work on an 
intermediate-range ballistic missile, a variant of which has 
reportedly been sold to Iran.
    China is fielding sophisticated weapons systems and testing 
new doctrines that it believes will strengthen its ability to 
prevail in regional conflicts and counter traditional U.S. 
military advantages. Military modernization includes anti-ship 
cruise and ballistic missiles, submarines, a cruise missile-
capable bomber, and modern surface-to-air missile systems.
    China's missile development includes the road-mobile DF-31A 
ICBM. Future ICBMs could include the JL-2 submarine-launched 
ballistic missile and some ICBMs with multiple independently 
targeted reentry vehicles. China successfully tested an anti-
satellite missile in January 2007 and is developing 
counterspace jammers and directed-energy weapons.
    Russia is trying to reestablish a degree of military power 
that it believes is commensurate with its renewed economic 
strength and political confidence. Russia's widely publicized 
strategic missile launches, long-range aviation flights, and 
carrier strike group deployment are designed to demonstrate 
global reach and relevance.
    Development, production and deployment of advanced 
strategic weapons continues, including the road-mobile SS-27 
ICBM and the Bulava-30 submarine-launched ballistic missile. 
Russia is also making improvements in its high-readiness, 
permanently ready conventional forces.
    To our south, Colombia's counterinsurgency operations are 
achieving success against the FARC. Venezuela's neighbors 
express concern about its desire to buy submarines, transport 
aircraft, and an air defense system, in addition to the 
advanced fighters, attack helicopters, and assault rifles it 
has already purchased.
    This has been a brief summary highlighting the work of our 
defense intelligence professionals. They are honored to serve 
our Nation and thank you for your interest and support.
    Chairman Rockefeller.  Thank you very much, all of you.
    I apologize for the relatively shorter time allotted to 
you, but I think, all in all, the questions will elicit a lot 
of what you otherwise would have liked to have also said.
    I will start, Director McConnell, with you. What is the 
intelligence community's assessment at this point about the 
ability to achieve the kind of political reconciliation in Iraq 
over the coming year that will make less necessary some of the 
sectarian and other violence which plagues that nation now?
    Director McConnell.  Mr. Chairman, I think, as I mentioned 
in my remarks, it's slower than we would like, but progress is 
being made.
    One of the things that they wrestled with over the past 
year is a de-Ba'athification law, and if I could expand on it 
just for a second, for those that were in the regime before--
security professionals, for example--when the new government 
was established, they were left out.
    And they made some very hard decisions to try to be 
inclusive to--while it's a Shia majority and Shia-dominated, to 
be inclusive, to bring the Sunnis in the country back in. And 
that law was passed just recently.
    There are other laws that are working through the system. 
And as they get more experienced with government--remember, 
this is a nation that was ruled by a dictator for the recent 
memory of anyone in that current organization governmentally, 
and they're actually learning the political process, how to 
negotiate, how to compromise and so on.
    So progress is slow, but I think we're on a course to have 
success over the next year. I don't think it will be done over 
the next year, but with perseverance it will be done in time.
    Chairman Rockefeller.  That doesn't really answer the 
question--there will be success in the coming year and things 
will get better. But as we all know, there's an amplitude of 
very serious problems that remain. You mentioned a few of them.
    The question is what about the next year. To what extent do 
you think in the next year--I understand the word ``over 
time.'' I understand better the word ``over the next year.''
    Director McConnell.  The two issues they are focused on at 
the moment that I think will be significant progress, if they 
can work it through their legislative process and get approval 
are provincial elections and revenue sharing, hydrocarbon 
revenue sharing.
    Those are two very, very tough issues. It's the form of 
government going forward. Is it inclusive of the provinces, and 
can it get agreement on that? So if they are successful in 
negotiating and closing on those two issues over the next 
number of months, then it would be significant progress.
    But I don't want to lead you, Mr. Chairman. It is not going 
to be over in a year. It's going to be a long time to bring it 
to closure. But progress is being made. The fact that security 
has been improved and established, we actually see things that 
return a quality of life to the Iraqi citizens.
    While there's a bill pending for how to share oil revenue, 
oil production's up another 500,000 barrels. It is being sold 
and that revenue is being shared. Electricity output is going 
up. The economy is growing. I think it's in a 7 percent, 8 
percent growth level.
    Inflation, which was very, very high this time a year ago, 
is down in the 4 percent, 5 percent range. So progress is being 
made, but I couldn't tell you that it's going to be over and 
done and completed in 12 months or 18 months. It's going in the 
right direction.
    Chairman Rockefeller.  I understand.
    Director Hayden, the House and Senate Conference Committee 
on Authorization agreed to a term which I think you may not be 
in favor of, and that is that all interrogation in CIA 
facilities, wherever, must follow the Army Field Manual. Now, 
that's controversial, and many changes have been made, and I 
understand that, within your approach.
    But what I need you to do is to tell me how you turn to 
Director Mueller and Director Maples, who say that that will do 
the trick and that that kind of interrogation's enough to 
elicit what you need to get, and tell them that it may be, if 
the authorization is passed, that we will be, in your view, 
perhaps shortchanging our ability to do intelligence.
    General Hayden.  Thank you, Mr. Chairman, for the question. 
The way I usually describe it, is that there is a universe out 
there of lawful interrogation techniques, you know, that we 
should feel as a Nation that we have a right to use against our 
enemies. And obviously, there are a lot of subtexts and 
subplots to that against our enemies. Are they lawful 
combatants, unlawful combatants? Are they terrorists? Are they 
uniformed soldiers? And so on.
    But again, there's a universe out there of lawful 
techniques. The Army Field Manual describes a subset of that 
universe. I've heard no one claim that the Army Field Manual 
exhausts all the tools that could or should be legitimately 
available to our Republic to defend itself when it comes to 
questioning people who would intend our Republic harm.
    What I would say is, the Army Field Manual meets the needs 
of America's Army--and, you know, give that to you in maybe 
three or four different senses.
    It meets the needs of America's Army in terms of who's 
going to do it, which, in the case of the Army Field Manual, 
would be a relatively large population of relatively young men 
and women who have received good training but not exhaustive 
training in all potential situations. So the population of 
who's doing it is different than the population that would be 
working for me inside the CIA interrogation program.
    The population of who they do it to would also be 
different. In the life of the CIA detention program, we have 
held fewer than 100 people. And actually, fewer than one-third 
of those people have had any techniques used against them, 
enhanced techniques, in the CIA program.
    America's Army literally today is holding over 20,000 
detainees in Iraq alone. And so again, there's a difference in 
terms of who's doing it, against whom you're doing it, and 
then, finally, in the circumstances under which you're doing 
the interrogation.
    And I know there can be circumstances in military custody 
that are as protected and isolated and controlled as in our 
detention facilities, but in many instances that is not the 
case. These are interrogations against enemy soldiers who 
almost always will be lawful combatants, in tactical 
situations, from whom you expect to get information of 
transient and tactical value. None of that applies to the 
detainees we hold, to the interrogators we have, or the 
information we are attempting to seek.
    And so I would subscribe and support--in fact, the CIA had 
a chance to comment on the Army Field Manual during its 
development--that the Army Field Manual does exactly what it 
does, exactly what it needs to do for the United States Army.
    But on the face of it, it would make no more sense to apply 
the Army Field Manual to CIA--the Army Field Manual on 
interrogations--than it would be to take the Army Field Manual 
on grooming and apply it to my agency, or the Army Field Manual 
on recruiting and apply it to my agency, or, for that matter, 
take the Army Field Manual on sexual orientation and apply it 
to my agency.
    This was built to meet the needs of America's Army. We 
should not confine our universe of lawful interrogation to a 
subset of those techniques that were developed for one purpose.
    Chairman Rockefeller.  I'm way over my time. I apologize to 
my colleagues.
    And I call on the Vice Chairman.
    Vice Chairman Bond. Thank you very much, Mr. Chairman.
    Following up on that, I'd like to ask Director Hayden for 
his comments, because we've spoken about this issue and your 
belief that the CIA's program was essential. Now the Attorney 
General has publicly said that the CIA is no longer using 
waterboarding as one of its techniques.
    I'd like your views, from your professional perspective, on 
why you think enhanced techniques are so critical in collecting 
intelligence and what you would say to those who think the Army 
Field Manual will be just as effective. Because that provision 
that was added in conferences out of--and when the conference 
comes--when the bill comes to the Senate, I intend to attempt 
to strike that.
    What arguments, Director Hayden?
    I'm sorry, General Hayden's had the shot. Let me direct 
that to Director McConnell. My apologies. I want to get another 
view in the game.
    Director McConnell.  Senator Bond, I would associate myself 
with the comments just made by Director Hayden with regard to 
lawful techniques that could be used to protect the country 
under any appropriate circumstances.
    You mentioned waterboarding. That is not currently in the 
program that we use. The question that's always asked--is that 
a lawful technique--and I think, as you saw the reports or 
participated in the hearing that the Attorney General 
participated in last week, if there was a reason to use such a 
technique, you would have to make a judgment on the 
circumstances and the situation regarding the specifics of the 
event.
    And if such a desire was generated in the interest of 
protecting the Nation, General Hayden would have to, first of 
all, have a discussion with me, and we would have a dialog 
about whether we should go forward and seek legal opinion.
    Once we agreed to that, assuming we did, we would go to the 
Attorney General, who'd make a ruling on the specifics of the 
situation. At that point, it would be taken to the President 
for a decision, and if a decision was taken, then the 
appropriate committees of the Congress would be so notified.
    So in managing the process, there is a universe of lawful 
techniques. They should be considered in defense of the Nation 
and appropriately administered, given that we would have to use 
such a technique.
    General Hayden.  Can I add to that, Mr. Vice Chairman?
    Vice Chairman Bond. Please.
    General Hayden.  Thank you. To put this into scale--and I 
know this is--look. This is a very difficult issue, not just 
for the Committee but for the Senate, for the Government, for 
my agency and for the people in my agency, and for the Nation 
at large.
    But let me just try to frame the discussion by pointing out 
a few facts. I mentioned just a minute or two ago that in the 
life of the CIA detention program, we've detained fewer than 
100 people. Of the people detained, fewer than one-third have 
had any of what we call the enhanced interrogation techniques 
used against them.
    Let me make it very clear and to state so officially in 
front of this Committee that waterboarding has been used on 
only three detainees. It was used on Khalid Shaykh Mohammed. It 
was used on Abu Zubaydah. And it was used on Nashiri.
    The CIA has not used waterboarding for almost 5 years. We 
used it against these three high-value detainees because of the 
circumstances of the time. Very critical to those circumstances 
was the belief that additional catastrophic attacks against the 
homeland were imminent. In addition to that, my agency and our 
community writ large had limited knowledge about al-Qa'ida and 
its workings. Those two realities have changed.
    None of us up here are going to make the claim--and I'm 
sure we'll get this question before we're done this morning--is 
America safe. And we'll answer it is safer, but it is not yet 
safe. So this one never gets to zero.
    But the circumstances under which we are operating, we 
believe, are, frankly, different than they were in late 2001 
and early 2002. We also have much more extensive knowledge of 
al-Qa'ida. And I've told this to the Committee in other 
sessions--our most powerful tool in questioning any detainee is 
our knowledge, that we are able to bring that knowledge to 
bear.
    Vice Chairman Bond. General, excuse me for interrupting. In 
the 8 seconds I have left, I wanted to fire off a question to 
you and Director Mueller.
    We're debating retroactive immunity. People keep telling me 
it's wrong. I used to be a lawyer. I believe that the private 
parties did nothing wrong. The Committee approved 13-2 
supporting civil liability reform.
    How important is the support of the private parties to your 
agencies in getting the operational successes?
    Director Mueller.  Well, I would say in protecting the 
homeland it's absolutely essential. It's absolutely essential 
we have the support, the willing support, of communication 
carriers.
    In this day and age, our ability to gain intelligence on 
the plans, the plots, of those who wish to attack us is 
dependent upon us obtaining information relating to cell 
phones, the Internet, e-mail, wire transfers, all of these 
areas. My concern is that if we do not have this immunity, we 
will not have that willing support of the communication 
carriers.
    I know there has been some discussion of having the 
Government substituted as a party, but I do think that that 
includes--if that were passed, it would be a disincentive still 
to the communication carriers to give us the support we need to 
do our jobs.
    It would entail depositions. It would entail public 
hearings. And there would be a substantial disadvantage to 
corporations, communication carriers to assist us willingly at 
a time when we need it more than ever. Consequently, I strongly 
support the provision for giving immunity to the communication 
carriers so that we do have the support of those carriers and 
remove the disincentives.
    General Hayden.  Mr. Vice Chairman, I support it in two 
jobs, the current one and one job once removed at NSA. I 
strongly support what Director Mueller has just stated with 
regard to carriers, but there are other relationships that we 
have that enable American intelligence that I'm more familiar 
with in my current job at CIA.
    And let me reinforce one thing that Director Mueller 
pointed out. These are very fragile relationships. We lost 
industrial cooperation at the CIA with partners on the mere 
revelation of the Swift program in public discourse, not 
because they were doing anything related to that program 
whatsoever, but just the fear that the vulnerability they would 
have to the smooth functioning of their business had caused 
people who were otherwise patriotic and committed to back away 
from their totally lawful cooperation with our agency.
    Vice Chairman Bond. My apologies, Mr. Chairman, but I 
thought that was important to get that in.
    Chairman Rockefeller.  I appreciate it.
    And going on the early bird rule, as we always do, Senator 
Feinstein?
    Senator Feinstein.  Thank you very much, Mr. Chairman.
    General Hayden, I wasn't going to discuss this, but since 
it was raised, it is true that you have briefed the 
Intelligence Committee on the interrogation techniques, which 
are called ``enhanced,'' which I called ``coercive,'' and they 
have changed. And they have been reduced in number.
    I'd like to ask this question. Who carries out these 
techniques? Are they Government employees or contractors?
    General Hayden.  At our facilities during this, we have a 
mix of both Government employees and contractors. Everything is 
done under, as we've talked before, ma'am, under my authority 
and the authority of the agency.
    But the people at the locations are frequently a mix of 
both--we call them blue badgers and green badgers.
    Senator Feinstein.  And where do you use only contractors?
    General Hayden.  I'm not aware of any facility in which 
there were only contractors. And this came up----
    Senator Feinstein.  Any facility anywhere in the world?
    General Hayden.  I mean, I'm talking about our detention 
facilities. I want to make something very clear, because I 
don't think it was quite crystal clear in the discussion you 
had with Attorney General Mukasey.
    We are not outsourcing this. This is not where we would 
turn to firm X, Y or Z, and say, ``This is what we would like 
you to accomplish. Go achieve that for us and come back when 
you're done.'' That is not what this is. This is a governmental 
activity under governmental direction and control, in which the 
participants may be both Government employees and contractors, 
but it's not outsourced.
    Senator Feinstein.  I understand that.
    General Hayden.  Good.
    Senator Feinstein.  Is not the person that carries out the 
actual interrogation--not the doctor or the psychologist or 
supervisor or anybody else, but the person that carries out the 
actual interrogation--a contractor?
    General Hayden.  Again, there are times when the 
individuals involved are contractors, and there are times when 
the individuals involved have been Government employees. It's 
been a mix, ma'am.
    Senator Feinstein.  Why would that be?
    General Hayden.  The best individual available at that 
moment for the task. In many instances, the individual best 
suited for the task may be a contractor.
    Senator Feinstein.  OK.
    I'd like to ask Director Mueller this question. An FBI 
special agent, George Piro, was on ``60 Minutes'' recently 
talking about how he conducted a lengthy interrogation with 
Saddam Hussein and how Hussein came to divulge many, many 
things I think not clearly known to the world before, such as 
the fact that, yes, he did not have weapons of mass 
destruction. He let the world believe he had weapons of mass 
destruction, and the reason he did so was because he feared an 
attack not from the United States, but from Iran.
    What techniques did Mr. Piro use to get this information, 
Director Mueller?
    Director Mueller.  It was a technique that was utilized 
over a period of time, which was building a bond, a 
relationship, a structured relationship, where Saddam Hussein 
believed that George Piro was the individual who controlled his 
everyday movements, his ability to have access to pen and 
paper, for instance, and developing a relationship over a 
period of time, which included a number of discussions in which 
a particular subject could be introduced and information 
elicited.
    Senator Feinstein.  And clearly it worked very well.
    Director Mueller.  We believe so.
    Senator Feinstein.  Does the FBI use the same techniques 
that the CIA has authorized?
    Director Mueller.  It has been our policy not to use 
coercive techniques.
    Senator Feinstein.  Do you follow any of the techniques or, 
I should say, protocols, the 18 that are put forward in the 
Army Field Manual?
    Director Mueller.  Well, our policy has been fairly clear, 
from as long as certainly I've been there, and that is we do 
not use coercive techniques of any sort in the course of our 
interrogations, which we find in the course of interrogations, 
given that they are conducted generally within the United 
States, often most times U.S. citizens, to be sufficient and 
appropriate to the mission that we have to accomplish.
    Senator Feinstein.  General, is it fair to say that all 
members of the military use the Army Field Manual?
    General Maples.  Yes, ma'am, that's true.
    Senator Feinstein.  So then it's safe to say that the only 
organization of the American Government that does not is the 
CIA? Is that correct?
    General Maples.  I didn't hear Director Mueller say that 
they actually used the Field Manual. But within the Armed 
Forces, we do use the Army Field Manual as our guide.
    Senator Feinstein.  So, Admiral McConnell, then the only 
organization of Government that uses coercive interrogation 
techniques really is the CIA, is that not correct?
    Director McConnell.  The only one to my knowledge, yes, 
ma'am.
    Senator Feinstein.  And I was reading a New Yorker article 
about your interview on the subject of waterboarding and 
coercive interrogation techniques, and I gather that you felt 
that, for yourself, if used, waterboarding would, in fact, 
constitute torture. Is that correct?
    Director McConnell.  No, ma'am, it's not correct. The 
discussion was about something entirely different. It was a 
personal discussion about when I grew up and what I was doing 
as a youngster.
    And the discussion was framed around being a water safety 
instructor. Some people--I'm one of them--have difficulty 
putting my head underwater. If my head goes underwater, I 
ingest water in my nose.
    So what I was having the discussion with the journalist is 
about being a water safety instructor and teaching people to 
swim. He said, ``Well, what about when water goes up your 
nose?'' And I said, ``That would be torture.'' I said, ``It 
would be very painful for me.'' Then it turned into a 
discussion of waterboarding.
    Ma'am, I made no statement or judgment regarding the 
legality of waterboarding. We've discussed it openly here what 
it is. Waterboarding taken to its extreme could be death. It 
could drown someone.
    Senator Feinstein.  Then the quote that I'm reading 
directly from the article, ``Whether it's torture by anyone's 
else definition, for me it would be torture,'' is not correct?
    Director McConnell.  I said it--and what I was talking 
about was water going into my nose, given the context of 
swimming and teaching people to swim. So it's out of context.
    Now, when the journalist was checking facts, he called me 
back and said, ``Here's what I'm going to say.'' And I said, 
``That's not the subject of our discussion, and I ask you not 
to put that in the article.'' We argued for 90 minutes. I said, 
``That will be taken out of context. It is not what our 
discussion was all about.'' And he said, ``Well, you said it. 
It's in my article. It's out of my control.'' So here we are. I 
said to him, ``I will be sitting in front of a committee having 
this discussion, arguing about what I said that was totally out 
of context.''
    The question, is waterboarding a legal technique? And 
everything I know, based on the appropriate authority to make 
that judgment, it is a legal technique used in a specific set 
of circumstances. You have to know the circumstances to be able 
to make the judgment.
    Senator Feinstein.  One last question.
    Director McConnell.  Yes, ma'am.
    Senator Feinstein.  Would you support having the Department 
of Justice opinions on this subject, which we have asked for 
numerous times, being made available to the Committee?
    Director McConnell.  The Committee has an oversight role 
that should entitle it to have access to the appropriate 
information. And I've said that to you and to the Chairman, the 
Vice Chairman, on any number of occasions. So you know my 
position.
    Senator Feinstein.  Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Rockefeller.  Senator Whitehouse?
    Senator Whitehouse.  Thank you, Mr. Chairman.
    Just to follow up a little bit on Senator Feinstein's 
questions, General Hayden, I just want to give you a chance to 
review your testimony here that those who conduct the 
interrogations are not 100 percent contract employees, that 
they are actually a mix of contract and CIA employees?
    General Hayden.  Senator, if you're looking for a specific 
example or a specific place, I'd have to check the facts. But 
in the history of the program, the interrogators that I'm aware 
of have been a mix of contract and Government.
    Senator Whitehouse.  How about if you narrow the program to 
waterboarding?
    General Hayden.  The real answer is I don't know. I'd have 
to check, Senator.
    Senator Whitehouse.  OK. I think that helps clarify.
    General Maples, doesn't the Army often, or military in 
general, face life-or-death decisions depending on what 
information it can extract from prisoners?
    General Maples.  Yes, sir, I'd say that's true, yes.
    Senator Whitehouse.  It could be whether battleships with 
crews of thousands get torpedoed. It could be locations of V-2 
missile sites that land on London. It could be all sorts of 
things, correct?
    General Maples.  All sorts of information that could be 
derived from an interrogation, yes, sir.
    Senator Whitehouse.  And could save thousands, tens of 
thousands, large numbers of lives?
    General Maples.  It could, yes, sir.
    Senator Whitehouse.  And notwithstanding those stakes, the 
Army has adhered in its interrogation techniques always to the 
Army Field Manual?
    General Maples.  Certainly since the recent Army Field 
Manual was published and it became law, that we would adhere to 
that, that is what the Armed Forces of the United States train 
to, and that's what we practice.
    Senator Whitehouse.  Thank you.
    Director McConnell, recently--in fact, today--a prominent 
acolyte of the Bush administration on foreign policy and 
intelligence matters has described your National Intelligence 
Estimates as politicized and policy-oriented. He describes them 
of sufficient demerit that they put the intelligence 
community's credibility and impartiality on the line.
    He says that the NIE was distorted, that in order for it to 
be objective it would have to be rewritten, that it involved 
sleight-of-hand, and grossly mischaracterizes the subject at 
hand, and that is infected with policy bias as the result of 
the work of policy enthusiasts within the intelligence 
community.
    Obviously, the entire discussion we've had today is of very 
little value or significance if the underlying intelligence 
estimate process is corrupted either by policy bias, or 
distortion, or gross mischaracterization, or politicization.
    Would you care to comment? Because it sort of had been my 
impression that we were in recovery from that and not in that 
state, but I think it would be worth it to hear your views on 
where the integrity of the intelligence community stands at 
this point, and specifically with regard to this NIE.
    Director McConnell.  Sir, I'd start by saying that the 
integrity and the professionalism in this NIE is probably the 
highest in our history, in terms of objectivity, and quality of 
the analysis, and challenging the assumptions, and conducting 
red teams on the process, conducting a counterintelligence 
assessment about were we being misled and so on.
    So I would start by saying that the article you referred to 
is a gross misrepresentation of the professionalism of this 
community.
    Now, from there I would say, depending on one's political 
perspective, you can pick up what this NIE has to say from 
different points of view. And I can also report that both sides 
are angry with how we represented this NIE. Therefore, we 
probably got it about right.
    Here was the issue. In the history of NIEs, there have been 
very, very few--I think I could number on one hand--that have 
been made public, unclassified key judgments. We got into that 
mode because it was highly politicized and charged when we were 
doing NIEs on Iran, Iraq and the terrorism threat. There was an 
expectation.
    Now, I made every attempt to establish a policy consistent 
with some of the views that were acknowledged or stated earlier 
about having our work be done in a confidential way and made 
available to those in the administration and in the Congress 
who need to do their work, where we're dealing with classified 
information.
    And I worked that policy. I coordinated. I notified the 
Committees this was going to be how we were going to go 
forward. And then we had a dilemma.
    I promulgated my policy in October. We were working through 
this analysis, had been working from the summer, coming to 
closure in November. And the issue for us was that my 
predecessor, Ambassador Negroponte, and me were on public 
record making statements about Iran that were different from 
our conclusion.
    So now my dilemma was: I could not not make this 
unclassified.
    Now, so we finished the debate and the dialog on the 27th 
of November. We briefed the President on the 28th of November. 
And the issue was the position had changed somewhat.
    As I mentioned in my opening remarks, there are three parts 
to a nuclear program. The only thing that they've halted was 
nuclear weapons design, which is probably the least significant 
part of the program. So then the question became: What goes in 
unclassified key judgments? Now, we had closed and I had signed 
on the 28th of November the classified key judgments. So my 
dilemma now is I can't make them different when I do 
unclassified.
    So now we're in a horse race. I've got to notify the 
Committee. I've got to notify allies. I've got to get 
unclassified out the door. So if I'd had until now to think 
about it, I probably would have changed a thing or two.
    But let me make a point. I've anticipated your question. I 
want to go to the first key judgment and to make reference to 
the article that you referenced in your remarks.
    First one, ``We judge with high confidence that, in the 
fall of 2003, Tehran halted its nuclear weapons program.'' 
Footnote, put it right here on the front page so everybody 
would see. We don't want to make any mistakes. We don't want to 
mislead anybody. ``For the purposes of this estimate, nuclear 
weapons program, we mean Iran's nuclear weapons design and 
weaponization work and covert uranium conversion-related and 
uranium enrichment-related work.''
    So now, to someone who's familiar with weapons--and this is 
the effort--that's part of a program. Now, the argument in our 
group was we can't just say that. We've got to attach it so 
it's colon--pardon me, semi-colon, same sentence, semi-colon. 
``We also assess with moderate to high confidence that Tehran 
at a minimum is keeping open the option to develop nuclear 
weapons.''
    We tried every way we could to put it all right in the 
beginning. It depends on your perspective of how you pick up 
the issue.
    Senator Whitehouse.  Thank you, Admiral.
    Thank you, Chairman.
    Chairman Rockefeller.  Gentlemen, I regret to say that we 
have an inconsequential, thoroughly unsubstantive, reflective 
difficulties on the floor between the two political parties 
vote, and we have 4 minutes left. So I'm going to recess this 
for about 6 minutes.
    Senator Bayh.  Can I go ahead with my questions?
    Chairman Rockefeller.  Yes, go ahead.
    I'll call on Senator Bayh, if you can run fast.
    Senator Bayh.  I'm going to go ahead with my questions and 
then run over for the vote, if that's OK, because I'd like to 
follow up on Senator Whitehouse's questioning.
    Director, I don't agree with the aspersions that were cast 
upon the quality of the work of your people in the article that 
Senator Whitehouse referred to, but I do think the work has 
been mischaracterized in the public domain, as you were 
pointing out. And it's had some unfortunate consequences.
    As a matter of fact, it may very well have made it more 
difficult to achieve the result that our Nation was hoping for, 
which was to find a way to end the Iranian nuclear program 
without resorting to force. It's made diplomacy much more 
difficult because of the way this was received around the 
world, including by the Iranians, the Russians, the Chinese, 
and others.
    You just mentioned that if you had to do it over again 
without the heat of the moment, some time to reflect, you would 
have changed a couple of things. What would you have changed?
    Director McConnell.  I think I would change the way that we 
described nuclear program. I may have put it up front with a 
little diagram, what are the component parts, so that the 
reader could quickly grasp that a portion of it--I would argue, 
maybe even the least significant portion--was halted and there 
are other parts that continue.
    Senator Bayh.  Just to clarify the record--and I'm 
referring only to the public NIE, and I've read it--my synopsis 
of it--and I'd be interested if any of you would disagree with 
this--was that they had an active all three components, fissile 
material creation, weaponization, delivery systems, all those 
were going forward.
    They decided a few years ago to suspend one component, as 
you characterize it, the least consequential of the three, at 
least temporarily they decided to suspend it. They could 
recommence that at any point in time.
    Director McConnell.  They could.
    Senator Bayh.  It would be very difficult for us, as I 
think you pointed out, to know when they have recommenced that. 
And ultimately, given their industrial and technological 
capabilities, they are likely to be successful. We don't know 
exactly when, but ultimately they're likely to be successful.
    Director McConnell.  Yes, sir.
    Senator Bayh.  Is that a fair synopsis?
    Director McConnell.  That's exactly right. And that's what 
the unclassified--if you read them all the way through--the 
unclassified key judgments make that point, and then there's 
the full body of the 140 pages of the National Intelligence 
Estimate.
    Senator Bayh.  Well, so my question to you is, you know, 
it's difficult when we just have one footnote that kind of 
clarifies the thing. How can you and your people go about 
presenting this in a way that is more likely to have a balanced 
presentation of your beliefs to avoid the kind of problem we've 
now got ourselves in going forward?
    And how can you think through the consequences of the 
report? Because it's had unintended consequences that, in my 
own view, are damaging to the national security interests of 
our country.
    Director McConnell.  Sir, it's a challenge. We tried in the 
time we had left to do just what you said. I thought at the 
moment, at that point in time, we had gotten good balance. In 
retrospect, as I mentioned, I would do some things differently.
    But let me make a couple of points. As you might imagine, I 
have focused very intently on Iran and the aftermath of this. 
And there's a debate in Iran now. And some are debating that 
this is not a good news National Intelligence Estimate; it's a 
bad news National Intelligence Estimate, because that means 
that international pressure and diplomacy efforts will be 
increased and sanctions will be enforced to hurt their economy.
    And, in fact, the permanent five-plus-one, Germany, they've 
just come to closure and agreement on new sanctions, and 
they're going to take it to the United Nations.
    Senator Bayh.  Are the Russians and the Chinese in accord 
with this?
    Director McConnell.  They are.
    Senator Bayh.  They are?
    Director McConnell.  Perm-5.
    Senator Bayh.  Well, I will be heartened and I will be 
pleasantly surprised if they do more than verbally express 
their support, but actually take the tough steps necessary.
    Director McConnell.  U.K., France, the United States.
    Senator Bayh.  How do you interpret the Russians, almost 
immediately after the issuing of this NIE, their beginning to 
supply the nuclear material to the Iranians for their reactor?
    Director McConnell.  Sir, I think to help the background of 
that, I think they're actually helping make the point. Here's 
the issue. First of all, the Iranians are pursuing a fissile 
production capability.
    The Russians, in negotiating with them, said to them: We 
will provide you what you need to run a peaceful reactor, but 
everything is absolutely under our control. The material is 
provided, the plutonium that's produced, it has to go back to 
Russia, and so on.
    Russia's also making the argument to the Iranians: The fact 
you're running an independent uranium enrichment program makes 
you suspect. You have no need for it.
    Senator Bayh.  I agree with all that, and I've got a little 
bit of time left here, so I guess, since I'm the last person 
standing, I'll have to recess the hearing and run on over 
there. But I agree with all that.
    But they had held up the delivery beforehand, I assume to 
make the point to the Iranians, look, you know, you've got to 
get your act together on some of these other things, because 
this is the pathway forward. And then they immediately took 
that pressure off.
    Director McConnell.  But it's because the Iranians, in 
fact, agreed to these very strict controls. So my view is they 
were, in this dialog, actually supporting the program that had 
been initiated on a diplomatic level to impose sanctions 
through the U.N.
    Senator Bayh.  Well, good. Let's hope that that proves to 
be the case going forward.
    My last question--and General Hayden----
    Mr. Fort.  Senator, excuse me, if I might add, just in 
terms of the Russian and Chinese attitudes, there are existing 
U.N. sanctions against Iran as a result of their failure to 
abide by the will of the international community, to which 
China and Russia have been compliant.
    And we are now negotiating another round of sanctions 
against Iran. So they have not withheld--or they have not, I 
should say--the Russians have not just totally opened up the 
floodgates in the one instance that you indicated, but the U.N. 
sanctions still stand against Iran.
    Senator Bayh.  Well, that's true. But the question is 
whether the sanctions will be effective. And some observers 
believe that a little more needs to be done there to try and 
finally get the Iranians in the place they need to be.
    Mr. Fort.  That's why the Secretary of State is continuing 
to pursue exactly that course of action to impose yet 
additional sanctions.
    Senator Bayh.  My last question, and then I'll turn this 
over to my colleague, General Hayden, it may be for you. It's 
about Pakistan and the tribal areas.
    It's unfortunate, but I was interested to hear about the 
fatalities that the Pakistanis have suffered, the other 
casualties they've suffered. Is it not possible that they may 
make a good-faith effort to try and stabilize that region, but 
it is just beyond their ability to accomplish, which will then 
present us with a real dilemma?
    We saw what happened in Afghanistan many years ago, when we 
allowed a lawless area to become essentially controlled by bad 
actors. We don't want a repetition of that. At the same time, 
if we insert ourselves, there's a real risk of destabilizing an 
already fairly tenuous regime.
    How do we strike that balance? And when do we conclude 
that, if the Pakistanis simply can't do it by themselves, that 
we have to do more and essentially say, ``Look, if you can't do 
it, we're going to have to do more, and we're going to do what 
we need to do here, because we can't afford to have a 
repetition of the Afghan situation''?
    How do we strike that balance? And when do we conclude that 
the balance of risks has tipped against us not acting, as 
opposed to acting?
    General Hayden.  Yes, sir. And I can elaborate more in 
closed session, but there's a lot that I think can be said in 
open.
    As the Admiral pointed out, these are good partners. We've 
worked very closely with the Pakistanis.
    To be fair, if you look at the history of our cooperation, 
we have been most successful in cooperating with our Pakistani 
partners in the settled areas of Pakistan, in which, number 
one, obviously, they have a more powerful presence, but, number 
two, I think there's more commonality of view between us and 
our partners that this is a threat to both of us.
    In the tribal area, I think it's fair to say, over a fairly 
long period of time and the Pakistanis were concerned about it, 
but the threat emanating from the Federally Administered Tribal 
Areas, the FATA, they could say, with some justification, was 
more a threat outside of Pakistan than it was to Pakistan, per 
se.
    Senator Bayh.  General, I apologize.
    General Hayden.  That changed.
    Senator Bayh.  Can you continue with your explanation for 
my colleague? I look forward to reading it, and I will return. 
Apparently, they're holding the vote just for me. So far be it 
for me to bring the Senate to a standstill.
    But I appreciate your response. If you would please 
conclude it, I will return.
    General Hayden.  Yes, sir. I think the new piece 
analytically is now that our partners in Pakistan understand 
that this is a Pakistani problem. And the threat coming out of 
the tribal area is now as much a threat to the health and well-
being and identity of Pakistan.
    Senator Bayh.  I'm glad they have that understanding. My 
question went more to capabilities. They may just not have the 
ability, even if they're well-intended, and then what do we do?
    General Hayden.  And if you meet with them, you meet with 
the best of them and have candid discussions, that is 
absolutely the case. And, therefore, we are in a period of time 
in which I think there is commonality of interest, commonality 
of intent, that Pakistan's capacity to do some of the things we 
both would like to see happen in the tribal area is limited.
    And now we come into this period of time, what is it both 
of us do in this period in which they must build capacity, and 
yet the threat currently exists? And we may be able to talk 
about that more in closed session.
    Senator Bayh.  Look forward to it.
    Chairman Wyden?
    Senator Wyden  [presiding]. Gentlemen, I think I can 
apologize for all of us that this is a particularly chaotic 
morning, and we appreciate your patience.
    I'd like to start with a different tact for purposes of my 
questioning. As I look at where terrorists get their money, I 
increasingly find that the dial points to Saudi Arabia. There 
are press reports that 50 percent of Hamas's budget comes from 
Saudi Arabia, Saudi citizens providing the majority of 
financing for al-Qa'ida in Mesopotamia, and it all flows 
through the madrassas and the cultural centers and scores of 
charities led by Saudi nationals and organizations based in 
Saudi Arabia.
    So I think my first question would be for you, Director 
McConnell, and you, General Hayden. Is it correct to say that 
private donors within Saudi Arabia continue to be a major 
source of funding for terrorist groups?
    Director McConnell.  Senator, I'd have to agree that a 
major source of terrorist funding would originate with private 
donors in that region of the world. When you look broadly 
across the globe, the majority would come out of the Middle 
East.
    But now some, just to be complete, some of the 
contributions to these terrorist efforts actually originate 
here in the United States. I mean, it's not out of the question 
that it would originate here.
    So if you look at the region, the Middle East is the 
majority, and the Saudis have recognized this, particularly 
since they were attacked internally some years ago. And they 
have been very forceful in attempting to turn the tide, to 
include engagement with the schools and the mosques and the 
religious establishment in Saudi Arabia to start to change this 
situation.
    It's not completely turned around, but it is being 
addressed.
    Senator Wyden.  I like the first part of your answer, 
General, and have questions about the second part.
    Now, 4 years ago, the Saudi Government announced that it 
would form a charities commission to oversee charitable 
donations and keep them from being used to fund terrorism. So 
there was this big, much-ballyhooed announcement 4 years ago.
    But as of today, this commission still has not been 
established. So my sense is that this is concrete evidence that 
they still aren't particularly serious about stopping money 
from flowing to terrorists who are outside their country.
    Isn't that again a signal that while the rhetoric may sound 
like they want to be supportive, it's just not happening when 
you look at the concrete signals like the foot-dragging on the 
charities commission?
    Director McConnell.  Sir, I'm not familiar with the 
specific charities commission that you're referring to. Maybe 
General Hayden--I'll turn that over to him.
    But let me be very clear about my point of view, having 
come back to Government just one year ago. I focused on this 
issue because it was a personal interest and because it's 
important. And what I have observed are major steps on the part 
of the Saudis to be more serious and more engaged on this 
topic. And the one I'm familiar with is here in the United 
States.
    What I was concerned about as a private citizen is support 
coming from Saudi for schools here in the United States 
contained language that we should not tolerate. And that 
process has been addressed. It's been cleaned up and so on. And 
so is it 100 percent complete and effective? No. But concrete 
steps are being taken.
    Senator Wyden.  I want to let the general answer, but, 
Admiral, take a look at the foot-dragging on the charities 
commission. I think it is a powerful signal that the follow-
through still isn't there.
    General, do you want to add to that?
    General Hayden.  Yes, very briefly, Senator. Thank you. I 
think you're right. Last time I checked, that was my 
understanding of where the charities commission was, but I 
haven't looked at it for a period of time, so I don't challenge 
your conclusion there.
    That said, Saudi Mabahith head Prince Mohammed bin Nayef, 
has actually moved their game into this region for the first 
time. As the Admiral suggested, they got real serious about 
threats in the kingdom. They have done very, very well in 
taking care of al-Qa'ida there.
    The last piece and the one that we've urged greater energy 
on them has been with regard to funding. And as the Admiral 
points out, this is a difficult one for this good partner, 
because it's wrapped in amongst alms giving and religious 
education and charity and so on. And so there are some cultural 
challenges for our partners to take this on as thoroughly as we 
might want. But I've talked to Mohammed bin Nayef, our 
counterpart there for the internal service. These have been 
very candid discussions.
    And I think--and we should probably get you a paper on 
this, Senator--there have been very concrete steps taken by the 
Saudis against donors, admittedly with this commission not yet 
up and running.
    Senator Wyden.  Let me see if I can get one other question 
in on the interrogation issue, because I know while I was out 
there was a fair amount of discussion about that.
    I think the concern has always been--certainly, the concern 
of an American in a dangerous time is--is it going to be 
possible to get information from these ticking time bombs, 
people who have information who represent a very serious and 
immediate threat to the wellbeing of the country.
    And my question on that point is for you, Director Mueller, 
and that is do the FBI--and perhaps we can bring the military 
folks in on this as well--use noncoercive techniques on 
individuals who have this time-sensitive threat information?
    Director Mueller.  Yes. As I indicated before, our policy 
states we will not use coercive techniques in the course of 
questioning suspects, subjects of our investigations. And there 
is no timeframe given.
    Senator Wyden.  And is it fair to say--this is an open 
session; I've touched on this in the past in open sessions as 
well with some of your people--that these noncoercive 
techniques that are being used by the department now can be 
effective in dealing with these time-sensitive ticking time 
bomb situations that the American people are so concerned 
about?
    Director Mueller.  The general answer is yes. But again, it 
depends on a circumstance. Yes. And as I have expressed before, 
our techniques, I believe, are appropriate to the success of 
our mission.
    Senator Wyden.  I'm going to ask you some more about this 
in closed session.
    But, Mr. Chairman, thank you. And I got a little bit of 
extra time, I gather, since everybody is running back and 
forth, and I appreciate it.
    Chairman Rockefeller  [presiding]. Thank you very much, 
Senator Wyden.
    Senator Warner is next, but he's not back yet, so I'm going 
to take advantage of the regular order and ask you, Director 
Mueller, to discuss something which you brought up which has 
had almost no discussion in this country at all.
    There's occasional discussion when it comes to, you know, 
is Baltimore safe as a port, et cetera, et cetera, et cetera, 
but--rail lines--but there's been no kind of comprehensive 
discussion of it.
    I would like to have you talk, if you can, for a full 5 
minutes about what you said, and that is the threat of 
terrorism within the United States of America.
    Director Mueller.  I refer to it on three levels. The first 
is al-Qa'ida itself, bin Ladin the core, which has been 
described here previously, and the Fatah.
    And the second level is individuals who are not necessarily 
directed from the outset, and the planning is not accomplished 
by core al-Qa'ida, but have some ties to al-Qa'ida, whether it 
be financial or recruiting or otherwise.
    And the third level is self-radicalized without any ties 
whatsoever to al-Qa'ida.
    The threat here in the United States is principally, at 
this juncture, we believe, self-radicalized groups with no ties 
to al-Qa'ida. Two of those instances we rolled up last year. 
One related to the plot against JFK. The other related to the 
plot against soldiers at Fort Dix.
    However, there are individuals in the United States who are 
philosophically, ideologically, associated with al-Qa'ida who 
recruit, finance and would have the capability of providing a 
support mechanism to somebody should they come in the country, 
much in the way there was unwitting support for the 19 
hijackers as they came into the United States before September 
11th.
    And our great concern is that there will be operatives that 
come to the United States, whether it be from Europe or 
elsewhere, that will come in with the goal of undertaking a 
terrorist attack.
    If you look at what has happened--transpired recently in 
the U.K., in 2005, July 7th, July 21st attacks, if you look at 
the recent--one was a successful attack; the other was 
aborted--or not aborted; was not successful--if you look at the 
recent detentions in Barcelona, Spain, these were individuals 
who had association with al-Qa'ida, traveled to Pakistan, 
gained perhaps some financial backing but certainly the 
training that they brought back and had a cadre of individuals 
that were available to undertake attacks.
    Our concern, great concern, is that while it is happening 
in Europe--it is one plane ticket away from occurring in the 
United States.
    And consequently, it's that middle level that may be self- 
radicalized at the outset but then, because of the close 
association, familial associations, with Pakistan gets training 
in Pakistan, gets support in Pakistan, and comes back, utilizes 
a network to undertake an attack, would be not satisfied with 
undertaking an attack in Europe but undertake an attack in the 
United States.
    Chairman Rockefeller.  And I understand that. What I'd like 
to get you to focus on for a minute or so is that which is 
carried on by people who have become disaffected either through 
unemployment, which now presumably will grow, through the 
example of a cause, the attraction to a cause.
    And it may not be that they actually go to al-Qa'ida or get 
their training in Afghanistan, but they simply decide to create 
malevolent actions within the United States for purposes which 
can either be twisted or which reflect their fundamental 
unhappiness within the American society as it's held before 
them in many ways.
    Director Mueller.  I think that is a possible explanation 
for certain actors who would take the dissatisfaction, the 
disenfranchisement, in the United States and couple it with the 
radical Islamic ideology and the two would reinforce each 
other.
    What you also see, in a number of these instances around 
the globe, well educated, relatively well off individuals who 
also have subscribed to this ideology who undertake such 
attacks. The most recent one that comes to mind is the doctors 
in the U.K. who--not last summer; I think it was the summer 
before--attempted to bomb a nightclub in London--that did not 
work--but then drove a car into the airport at Glasgow.
    These were doctors. These were not persons who were 
unemployed. They are not persons who lacked skills.
    And consequently, while you can look at some individuals 
who may have motivation, given their current financial 
circumstances, you cannot rule out others who would undertake 
attacks for other reasons but do not suffer from the same 
disadvantages.
    Chairman Rockefeller.  In 30 seconds, if you can, do you 
see the trend within the United States--or let me say this. Are 
we not paying enough attention to this--not referring to the 
FBI, but referring to the American people, to the American news 
media--to the discussion?
    The discussion is always attracted to, you know, firebombs, 
and destruction overseas, and loss of life, and yet the Richard 
Reid situation indicated that things can happen in other ways 
also, and that was very early; therefore, maybe not less 
relevant.
    But people become attracted to a cause. People have to have 
some meaning in their life. They're disenfranchised 
economically or in their own minds, and they want a cause to 
give their life meaning, even though it's malevolent meaning. 
It's a very powerful factor. And I would think that America is 
no less immune to that than, let's say, parts of Africa, 
although it may not be as developed. I just want to hear you 
talk about that, unless you find my question inappropriate.
    Director Mueller.  No, I would agree with the premise of 
the question in terms of persons who fall prey to that 
malevolent ideology as something that we are tremendously 
concerned about. There can be any number of causes.
    Do we pay enough attention to that? My concern is that 
we're several years away from September 11, and inevitably 
there is a complacency that begins to take hold when there is 
nothing immediately happening. And I do worry about 
complacency. I do worry about early intervention, early 
identification of individuals who fall prey to the ideology. I 
can tell you we and our counterparts, DHS and State and local 
law enforcement, through our Joint Terrorism Task Forces, are 
alert to this.
    But it also takes representatives of the communities in 
which this can occur to be alert to it, and not turn a blind 
eye toward it and to alert us when there are the signs that 
somebody is becoming radicalized and getting to the point where 
it is beyond the discussion stage and to the point where they 
take an overt act in pursuit of a particular plot or 
conspiracy.
    Chairman Rockefeller.  So to sum up, then, you do not have 
to be Russian, Chinese or somebody else in order to do 
cyberterrorism. You can do that as an individual, untrained in 
Afghanistan or Pakistan, from within the United States if 
you're angry enough about something that you think that by 
doing that you will bring meaning to your life simply because 
you feel disenfranchised.
    Director Mueller.  Yes. Meaning to your life--you know, 
even if you are not disenfranchised, it brings additional 
meaning to your life. You can be a college student in Atlanta 
or elsewhere.
    Chairman Rockefeller.  Or a doctor. You're correct.
    Director Mueller.  And we've had instances along those 
lines.
    Chairman Rockefeller.  I thank you, sir.
    And I apologize to Senator Warner, whose turn it now is.
    Senator Warner.  Thank you, Mr. Chairman.
    And I want to say to Director McConnell and each of his 
associates here today that Americans have got to take great 
pride in what you and your respective organizations are doing 
to preserve freedom as we so cherish it here in this country.
    You represent now under the new law, having brought 
together and integrated our intelligence, the finest 
professional group of men and women to be found anywhere in the 
world who devote themselves solely to the preservation of the 
freedoms of this country. And I want to commend each of you.
    And I want to go back to our distinguished Chairman and 
Ranking Member and their comments about the current FISA debate 
in the Senate and once again look at your paragraph, Director 
McConnell, where you say, ``Expiration of the Act would lead to 
the loss of important tools the intelligence community relies 
on to discover the plans of our enemies.''
    And you've particularly reemphasized this Committee having 
voted 13-2 to give retroactive liability protection to the 
private sector which have stepped up to work with this 
community. And I just wanted to emphasize that the motivation 
of private companies to come forward and participate in this 
program, they're may be some reimbursement for cost, but it's 
purely for patriotic reasons. Am I not correct in that?
    Director McConnell.  Yes, sir, that's correct.
    Senator Warner.  General Hayden?
    General Hayden.  Yes, sir, absolutely correct.
    Senator Warner.  Director Mueller?
    Director Mueller.  Correct.
    Senator Warner.  You know, I, on the floor, working with my 
colleague here on a colloquy one day, I likened the activities 
of these corporations in America to the all-volunteer force. 
Each of the men and women in our Armed Forces today have raised 
their hand and have volunteered to step forward and proudly 
wear the uniforms of our country and to assume the risk and 
their families to share in those burdens.
    So I look upon these companies as part of the all-volunteer 
force in the general matrix of people in this country trying to 
ensure our freedoms and safety. So I'm going to fight ever so 
strongly with my two colleagues on my right here to get this 
done.
    Let's turn now to your comments on Iraq, Director 
McConnell. You say, ``The security situation in Iraq continues 
to show signs of improvement.'' And in response to questions 
from the Chairman and the Ranking Member, you amplified about 
the provincial elections coming up, how pivotal they are, and 
the hydrocarbon law.
    But I want to step back, and I look at this in the context 
of another responsibility that I have here in the Senate on the 
Armed Services Committee and our urgent need to reduce the time 
of tours of duty from 15 months down to a more realistic, and 
hopefully a lesser, 12 months, and then perhaps even a shorter 
tour.
    Because, I have to tell you, I visited with the Army 
officials here in the last day or two, and we're going to have 
hearings in the Armed Services Committee. This conflict is 
taking its impact on our all-volunteer force. We're asking an 
awful lot of these men and women who have repeated tours over 
there and the burden on their families and their ability, as 
Reserve and Guard, to reintegrate into civilian life.
    So I want to ask you this question. What is your level of 
confidence that there will be continued signs of improvement in 
the coming year? Hopefully that will translate in our ability 
to shorten the tours. Is it a high confidence that we'll 
continue to see signs of improvement, medium confidence, or low 
confidence?
    Director McConnell.  Sir, I would say medium confidence on 
my part, and hopefully that would improve in time. As I 
mentioned, the leadership in Iraq, they're learning how to 
govern and how to compromise and how to do this business, a few 
key pieces of legislation.
    But as this goes forward, having an Iraqi security force 
that's professional--so that's a training component for us. So 
I see a path that gets us to what you suggested, in addition to 
shortened tours, to also having a role more in overwatch, where 
we're training and assisting and equipping, as opposed to 
actually engaging in the security applications.
    Senator Warner.  You list here very carefully all of the 
things that are taking place over there that are of concern. We 
still have just an extraordinary amount of Shia insurgency with 
various groups, and the fragility of the Sunnis, who have tried 
to cooperate and are now beginning to, certainly in Al Anbar, 
keep things quieter.
    But if you had to list the two greatest risks to reversing 
this trend of continued improvement, what would they be?
    Director McConnell.  First would be Iran and Iran's role in 
how they play, equip, and support, and cause issues.
    And the second would be the Shia-on-Shia dialog. There's 
one large group referred to as Jaysh al-Mahdi, which Muqtada 
al-Sadr is responsible for, and then there's the group, ISCI, 
we refer to it as a shorthand, which is a political party.
    And if those two can learn to work together and compromise, 
and the Kurds also have a role in having participation and 
compromise, and the Sunnis will come into that group for dialog 
and constructive engagement, then they're going to be 
successful. But it's going to--the single most thing in the 
short term would be Shia-on-Shia, in my view.
    Senator Warner.  Do you share, Director Hayden, with 
Director McConnell's assertion that it's a medium confidence? 
Is that the level that you have?
    General Hayden.  Yes, sir, I do, Senator. I do. And I agree 
with how he racked up the different factors.
    I would add one additional thought. I know you're aware of 
this, but I need to make it explicit. The enemy gets a vote, or 
the enemy gets the appearance of a vote. So there is the 
possibility that al-Qa'ida in Iraq, for example, which I think 
is the one most capable of doing this, could create the 
appearance of lack of progress by extra exertion, as we talked 
last year when we had this discussion, kind of visiting hell on 
the civilian population.
    And so I'd just caution for all of us to be careful about 
the underlying realities that are happening, because there can 
be these violent spikes that are engineered by the enemy. And 
that's what I meant by his getting a vote in this.
    Senator Warner.  The key word is ``spikes,'' though. That 
indicates what goes up comes down in a short period of time.
    General Hayden.  Yes, sir, that's correct. That's right.
    Senator Warner.  But the general sort of plan, that it's 
continuing to ratchet down, not as fast as we would hope, but 
it is in that direction, you have a medium confidence that will 
continue?
    General Hayden.  Yes, sir, I think that's right.
    Senator Warner.  General Maples?
    General Maples.  Sir, I would agree with that, also, that 
assessment, moderate level. I think there are a lot of 
variables that are at play that have caused a reduction in 
violence that we have seen in Iraq.
    And I think that, clearly, the Shia restraint is one of the 
key variables here. The freeze that has been imposed by Jaish 
al-Mahdi, Shia-on-Shia cease-fire that has been agreed to I 
think is key to being able to maintain this.
    And on the other side, the local initiatives that have 
taken place, which al-Qa'ida in Iraq is doing its best right 
now to try to undo, they have to be sustained.
    Senator Warner.  I thank you.
    Let me proceed to Afghanistan, Director McConnell. Looking 
page 18--I'll just read it to you--``The Taliban and other 
insurgent groups operating in the poppy-growing regions gain at 
least some financial support as a result of their ties to the 
local opium traffickers.''
    This situation with regard to the drugs is just, in my 
judgment, almost out of control. And to date, neither NATO nor 
the United States working with our partners have been able to 
come up with what I believe is a strategy that's going to begin 
to ratchet down the increasing levels of poppy and opium 
traffic.
    And as you say here, I think you've put it a little too 
mildly for me, that the Taliban may be getting financial 
support. I think a lot of financial support is flowing to the 
Taliban, which enables them to buy weapons and then fire those 
weapons right at U.S. troops and to the NATO troops.
    And I think that's just unacceptable. Do you have any views 
as to what could be done to strengthen--of course, this is a 
policy question--a cessation of this source of cash, ready cash 
to the Taliban?
    Director McConnell.  Sir, I would say there are two major 
issues. You touched on one. That is a serious program that not 
only eradicates, but provides an alternative to the Afghan 
farmers that need a way to make a living and so on. So that's 
the challenge. How can you effectively do that? And so far, we 
haven't come up with the right combination.
    The second part, it is also in Pakistan with regard to the 
Federally Administered Tribal Areas, where not only al-Qa'ida 
has some de facto level of sanctuary, but some Taliban members 
have de facto sanctuary for training, and equipping, and rest 
and recuperation, and so on.
    So if we find a way of addressing those two issues, and 
then we take offensive operations with regard to the Taliban 
insurgents, I think progress would be a little more 
forthcoming.
    Senator Warner.  But that drug trade is the cash-flow 
that's keeping Taliban alive.
    Director McConnell.  Yes, sir.
    Senator Warner.  General Hayden?
    General Hayden.  Yes, sir, Senator, I'd agree. If you look 
at the circumstances in Iraq and Afghanistan, they're very 
different. I would suggest to you the single biggest difference 
between the two countries, in trying for us to translate 
tactical success into strategic success, the single biggest 
difference are the drugs in Afghanistan.
    Senator Warner.  The drugs.
    General Maples?
    General Maples.  Sir, I agree.
    Senator Warner.  Thank you, Mr. Chairman.
    Chairman Rockefeller.  Thank you, Senator Warner.
    Senator Hatch?
    Senator Hatch. Well, thank you, Mr. Chair.
    Chairman Rockefeller.  Followed by Senator Feingold.
    Senator Hatch. Thank you, Mr. Chairman. And I want to thank 
all of you for the service you're giving to our country. It 
really means a lot to all of us up here, and certainly to me.
    But having mentioned Pakistan, two of our most important 
allies in the global war on terrorism are two of our most 
problematic ones, and that includes Pakistan and, of course, 
Saudi Arabia.
    Now, I think what I'm going to do is ask a couple questions 
about Pakistan. Last year, in the widely reported declassified 
key judgments of the NIE on the threat to homeland security, 
you recognized that al-Qa'ida is secure in Pakistan's Federally 
Administered Tribal Areas, or FATA.
    From this part of the world, where Pakistan asserts 
sovereignty, al-Qa'ida plots against the West and its allies in 
the Taliban-supported area, and the counterinsurgency, also, 
that seeks to topple the government of our ally in neighboring 
Afghanistan.
    Further, the militancy emanating from the tribal areas has 
grown so strong that it has spread to the settled areas of 
Pakistan, in the Northwest Frontier Province, but also reaching 
into the heart of Pakistan's cities, including Islamabad. The 
most egregious example of this, of course, is Benazir Bhutto.
    But open press reporting last year gave too little coverage 
to the story of the escape of Rashid Rauf, whose escape from 
Pakistani custody seems too incredible to believe, as he seems 
to have been allowed to walk out of the door of a mosque that 
he was allowed to visit. Rauf, I will remind everyone here, was 
considered the mastermind of the 2006 airline plot out of 
Britain, which was to blow up as many as 10 airlines over the 
Atlantic.
    Yesterday's Washington Post had a piece on Abu Laith al-
Libi, whose demise last week none of us will bemoan, but who, 
according to the Post, freely traveled around Pakistan, not 
just in the tribal areas, met with foreign diplomats, and 
visited wounded Taliban warriors recuperating in Pakistani 
hospitals. And these Taliban, it must be noted, were wounded 
fighting Afghans and coalition forces, including the U.S. 
military, in Afghanistan.
    In short, under the current Pakistani Government, the 
terror threat to the West has grown, the insurgent threat to 
Afghanistan has grown, and--this was entirely predictable--the 
militant threat to the people of Pakistan has grown.
    Now, at what point do you believe it would be better to 
pronounce the current Pakistani Government a complete failure 
in advancing security for us or even their own people? And what 
Pakistani institutions could successfully stand against these 
threats?
    What could the United States do to support these 
institutions? And what is the significance of the creation last 
December of Tariki Taliban, the Taliban movement of Pakistan?
    Those are a lot of questions. I guess we'll start with you, 
Admiral.
    Director McConnell.  Thank you, sir.
    I think the most significant thing in the recent situation 
is the threat has moved into Pakistan proper to threaten the 
very existence of the nation.
    Senator Hatch.  Well, it's been there for a quite a while.
    Director McConnell.  Yes, sir. But in the last year the 
number of terrorist attacks and deaths were greater than the 
past 6 years combined.
    So what's happened is Pakistan has now recognized that this 
is an existential threat to their very survival. And the 
leadership there is taking steps, and conducting actions, and 
starting a process to be more aggressive in getting control of 
the situation, with regard to not only al-Qa'ida, but also the 
militants in the FATA area.
    The only institution that has the strength to do what you 
just described is the Pakistani Army. We need to think about 
the Pakistani Army and how it was constructed and how it's been 
maintained for 60 years. It is designed as a force-on-force, 
primarily facing a threat from India, and is not a 
counterinsurgency force the way we have evolved with our 
special operations forces. So that discussion is taking place 
in Pakistan now. And there will be changes in time to be more 
aggressive in addressing this threat.
    With regard to the government itself--very critical time. 
They're in a transition to democracy, and it is a key point in 
Pakistani history. For the first time in their history, their 
legislature finished a term, and the elections are happening 
later this month on the 18th.
    This is a critical time to get them through this process--
they get themselves through this process--so they have 
democratic institutions that can start to address the issues 
you've outlined.
    Senator Hatch.  General Hayden, do you have any comments 
about all that?
    General Hayden.  Well, Senator, I'd agree with your macro 
description of what's gone on there over the past several 
years, with very few exceptions.
    I've spoken to my counterparts in Pakistan and actually 
General Kayani, who's Chief of the Army Staff. I think they 
would agree in broad outline with your analysis. But now the 
question is capacity. What is it they can do about this with 
the capacity they have as a government?
    General Kayani, as the Admiral suggests, as Chief of Army 
Staff, has inherited an incredibly artillery-heavy army, and 
how he's faced with an insurgency between and among tribal 
groups in the tribal region. He's got a plan using the 
resources he has available plus transitioning to the kind of 
army that he will need to meet this problem. I think it's a 
realistic appreciation of the situation. But right now, it's a 
question of capacity.
    Senator Hatch.  Thank you.
    Mr. Chairman, may I ask just one other question? Thank you, 
sir.
    I wish to commend both you, Admiral McConnell--well, all 
five of you, but in particular, through listening to you, you, 
Admiral McConnell and General Hayden, for your candor and your 
precision of your remarks on the question of enhanced 
interrogation techniques.
    And I want to thank you, General Maples, for reiterating 
the Pentagon's adherence to the Army Field Manual. These couple 
of questions that I'm going to direct to you, General Maples.
    In following up on Senator Whitehouse's question earlier, 
let me ask you these two questions. Can the Army Field Manual 
be rewritten?
    General Maples.  Certainly, it could. Yes, sir.
    Senator Hatch.  How?
    General Maples.  Well, one of the areas that we've looked 
at and we have talked about is what type of behavioral 
techniques are most beneficial to adduce information from 
others, and----
    Senator Hatch.  So it could be changed at any time.
    General Maples.  Yes, sir. It could be.
    Senator Hatch.  OK. Then let me ask you this. Would it be 
fair to say that the Army Field Manual was written for 18-year-
olds to 20-year-olds primarily to help them to know how to act 
and what to do?
    General Maples.  I would go somewhat beyond that, but 
generally it is a younger population. Yes, sir.
    Senator Hatch.  Let's say up to 24-year-olds or 25-year-
olds. I don't care.
    General Maples.  Yes, sir.
    Senator Hatch.  But written for younger people who may not 
be involved in the intelligence gathering that the CIA does or 
that others in the intelligence community have to do for us.
    General Maples.  Certainly written for a different group 
with a different purpose. Yes, sir.
    Senator Hatch.  That's right. Now, one last question. If 
the application of an enhanced interrogation technique on an 
al-Qa'ida operative could have given us intelligence to have 
prevented the attack on the USS Cole, would that have been 
worthwhile?
    General Maples.  Sir, it certainly would have been to the 
Armed Forces and to those young sailors.
    Senator Hatch.  We lost how many young sailors at that 
time? It was about 17.
    General Maples.  Seventeen, sir.
    Senator Hatch.  Well, it seems to me that you guys have a 
really tough job to be so second-guessed up here by people who 
don't have to be on the front lines on these things.
    One last thought on this line. Right now, we're in a big 
battle up here on the FISA bill.
    And Admiral McConnell, you know, as an attorney, 
understanding how general counsels work, if we do not grant 
retroactive immunity to these companies that acted 
patriotically at the request of the United States, and no civil 
suits continue--based upon, by the way, Mr. Klein and a few 
other people who really haven't--didn't know anything about 
what was going on.
    With all the depositions, discoveries, interrogatories and 
so forth that would disclose all kinds of sensitive 
information, wouldn't we be at a tremendous disadvantage 
because general counsels of those companies--if they're going 
to be second-guessed and their people are going to be sued, and 
their employees subjected to terrorism all over the world, just 
to mention a few little aspects of this, what general counsel 
would allow that type of cooperation without litigation, which 
would then delay us getting the intelligence we need to protect 
America from even weapons of mass destruction, Admiral 
McConnell?
    Director McConnell.  You've described it exactly right, 
Senator. Without retroactive liability protection, those 
general counsels, as an obligation to those companies, would 
tell them not to cooperate with us and to litigate.
    Senator Hatch.  And we would not get the intelligence we'd 
have to have on a short-time basis so that we could protect 
America, is that right?
    Director McConnell.  The tragedy is it would slow our 
efforts. It would make us less effective. And I would make one 
other point. American industry, particularly in this field, 
leads the world.
    And so not only is it what they've alleged to have been--to 
help us in the aftermath of 9/11, but since they lead the 
world, their insight and abilities and knowhow, understanding 
of technology, is what we depend on to be effective on a global 
scale.
    Senator Hatch.  Some have said up here that we should 
substitute the United States as the defendant in these cases. 
Would that solve the problem?
    Director McConnell.  No, sir.
    Senator Hatch.  You'd still have discovery, depositions, 
interrogatories, all kinds of disclosures of the highest 
classified information that could just wreck what we're trying 
to do to protect America, is that correct?
    Director McConnell.  Yes, sir, that's correct.
    Senator Hatch.  Do you agree with that, General Hayden?
    General Hayden.  Yes, sir.
    Senator Hatch.  How about you, Mr. Mueller?
    Director Mueller.  Yes. Yes. I agree with that.
    Senator Hatch.  And the others? General Maples?
    General Maples.  Yes, sir.
    Senator Hatch.  Mr. Fort?
    Thank you letting me ask those questions.
    Chairman Rockefeller.  Thank you, Senator Hatch.
    Senator Feingold?
    Senator Feingold.  Thank you, Mr. Chairman.
    First, let me ask that my opening statement just be put in 
the record.
    Chairman Rockefeller.  It is so ordered.
    [The information referred to follows:]

OPENING STATEMENT OF SENATOR RUSS FEINGOLD, A U.S. SENATOR FROM 
                           WISCONSIN

    Thank you, Mr. Chairman. The National Intelligence Estimate 
on threats to the homeland released last year assessed that al 
Qaeda has protected and regenerated its capacity to attack the 
United States. Meanwhile, the situation in Afghanistan is 
backsliding. And recent bombings in Algeria underscore the 
serious threats posed by Al Qaeda's affiliates around the 
world. Yet, tragically, the Administration maintains its overly 
narrow focus on the war in Iraq, draining attention and 
resources from these and other national security priorities. 
While only one year remains in this Administration, we cannot 
wait that long to refocus on the threats before us. We need 
strategies to combat Al Qaeda's global reach. We need a better 
understanding of Al Qaeda's affiliates, their links to Al Qaeda 
, and the unique role they play in the countries and regions in 
which they operate. We need a better grasp of terrorist safe 
havens and the political, economic and cultural factors that 
allow them to fester. And we need truly global intelligence 
capabilities directed at local and transnational issues that 
are far too often overlooked--until a crisis explodes. One need 
look no further than Kenya to understand how bad governance, 
corruption, repression, and ethnic tensions can end up posing 
serious strategic challenges for the United States and to 
appreciate how anticipating these kinds of crises is in our 
vital national security interests.
    Supporting the Intelligence Community's ability to protect 
our nation means providing it with the strategies and 
capabilities to understand the world as it is. It means 
acknowledging that Iraq is not the central front in the fight 
against al Qaeda--not when the Intelligence Community tells us 
that al Qaeda has a ``safehaven in the Pakistan Federally 
Administered Tribal Areas.'' It means giving the Intelligence 
Community the tools it needs to go after al Qaeda and its 
affiliates without intruding unnecessarily on the rights and 
freedoms of law-abiding Americans at home. Hard work lies 
ahead, but we cannot afford to wait.
    Senator Feingold.  Second, let me also thank each of you 
for your tremendous service to the country.
    And, Director McConnell and General Hayden, the New York 
Times reported in December that the CIA tapes that were 
destroyed ``documented a program so closely guarded that 
President Bush himself had agreed with the advice of 
intelligence officials that he not be told the locations of the 
secret CIA prisons.'' Is that true?
    General Hayden.  I'm not at liberty to discuss any personal 
conversations I've had with the President, Senator.
    Senator Feingold.  Did the President know?
    General Hayden.  I'm not at liberty to discuss that.
    Senator Feingold.  That's not asking about the 
conversation, but did he know?
    General Hayden.  For me to comment on that would imply 
other activity, previous conversations, and, one, I won't do 
it. And number two, I don't know.
    Senator Feingold.  Director McConnell?
    Director McConnell.  I don't know.
    Senator Feingold.  OK. Well, wouldn't this raise serious 
concerns about whether the President is capable of or even 
interested in making fundamental decisions relating to fighting 
al-Qa'ida?
    I mean, shouldn't the President have this knowledge if he's 
going to make the kind of judgment and analysis that's needed 
here?
    General Hayden.  My judgment is that the President knew all 
that he felt sufficient for him to issue the guidance he felt 
he should issue us.
    Senator Feingold.  Do you think the President needs to know 
this information?
    General Hayden.  Me?
    Senator Feingold.  Do you think the President ought to know 
that information in order to make his best judgment?
    General Hayden.  If I thought the President needed to know 
something, I would tell the President something.
    Senator Feingold.  Has the Vice President known the 
locations of the facilities, General Hayden?
    General Hayden.  I don't know, and again, I wouldn't 
venture to comment on any conversations I've had with the Vice 
President.
    Senator Feingold.  Director McConnell?
    Director McConnell.  I don't know.
    Senator Feingold.  How about the Secretary of State or the 
Attorney General? Either of them know?
    General Hayden.  I'm not aware that they do.
    Director McConnell.  I don't know.
    Senator Feingold.  All right.
    Director McConnell, you were quoted in the New Yorker as 
saying that whether an interrogation technique is torture is 
``pretty simple. It is excruciating and painful to the point of 
forcing someone to say something because of the pain.''
    Well, pain is pain, right? It doesn't depend on the 
circumstances under which it's inflicted, right?
    Director McConnell.  Is that a question?
    Senator Feingold.  Yeah. It's a question. I mean, pain is 
pain. It doesn't really depend on the circumstances under which 
it's inflicted.
    Director McConnell.  My remarks that you're referring to--I 
was talking about excruciating pain.
    Senator Feingold.  General Hayden, do you agree with the 
Director's definition? Do you agree that torture is defined by 
the level of pain that is inflicted and not by the 
circumstances?
    General Hayden.  The statute points out the requirement for 
something to be defined as torture, and I've forgotten the 
adjectives, Senator, but there are a series of adjectives in 
front of the word pain. That's correct.
    Senator Feingold.  And does this have to do with the level 
of pain or the circumstances?
    General Hayden.  I think it has to do with both the level 
and duration and the lasting effects of the pain, to the best 
of my memory of the statute.
    Senator Feingold.  Let me switch to Pakistan and 
Afghanistan. The State Department's counterterrorism chief, 
Lieutenant General Dell Dailey, has expressed publicly his 
concerns that there are significant gaps in what we know about 
threats in the Afghan-Pakistan border tribal areas.
    He said, ``We don't have enough information about what's 
going on there, not on al-Qa'ida, not on foreign fighters, not 
on the Taliban.'' Director McConnell, do you agree? And if so, 
how serious is this problem?
    Director McConnell.  Our information is never complete 
enough, and if we had the locating information, particularly of 
the leadership, we would be able to carry out actions to 
neutralize the leadership. So that specific information we seek 
and we do not have.
    Senator Feingold.  So you would agree with his assessment?
    Director McConnell.  I would agree in broad terms with the 
need for better information.
    Senator Feingold.  Director McConnell, your testimony 
points out that al-Qa'ida in the Lands of the Islamic Maghreb 
has expanded its targets to include the United States and the 
U.N. and has increased the lethality of its attacks.
    Director McConnell.  U.S. interests is what I said, yes, 
sir.
    Senator Feingold.  What's that?
    Director McConnell.  U.S. interests is what I said. A U.S. 
company is what was attacked.
    Senator Feingold.  OK. Fair enough. I'm concerned, however, 
that your testimony seems to lump the group, which has a long 
history in Algeria, with AQI, which didn't even exist prior to 
the war in Iraq. These are very different situations.
    Director McConnell.  No, I linked it with AQ, meaning al-
Qa'ida, not specifically AQI, which means al-Qa'ida in Iraq. We 
use the terms just so we can have conversations to place 
geographically the group we're talking about.
    Senator Feingold.  Do you agree that the terrorist threat 
in North Africa has become worse? And second, how do we 
confront this threat directly with strategies geared toward the 
unique history and political environment in that region?
    Director McConnell.  I think it's become worse in Algeria, 
in that area. I don't think it's gotten worse necessarily yet 
in Libya or in Egypt.
    Senator Feingold.  You don't see a general trend in that 
region.
    Director McConnell.  A trend meaning that al-Qa'ida, who 
resides in the Federally Administered Tribal Area in Pakistan, 
having a reach with Internet and a method to communicate has 
been successful in establishing links and having a broad 
message that's been embraced by radical elements--in that 
sense, I see a trend.
    Senator Feingold.  If the threat from the Pakistan-
Afghanistan region is getting worse, and the threat in North 
Africa is getting worse, is it accurate to say that any 
tactical successes against al- Qa'ida in Iraq are, at best, 
unrelated to the global threat from al-Qa'ida and its 
affiliates?
    Director McConnell.  No, I wouldn't agree with that at all. 
I would describe a trend. A trend is something that people are 
attracted to, an ideology, something they will follow. And if 
you look at throughout history, there have been a variety of 
things that people would follow. Communism is the one we dealt 
with in the last generation.
    So my view of what's happened--there's an ideology. It has 
a way of communicating. And these things are linked. It's a 
broad, inspirational level.
    So there is a group in Iraq that's associated with al-
Qa'ida. They take direction and guidance from al-Qa'ida that's 
still residing, the leadership, in Pakistan.
    Senator Feingold.  Thank you, Mr. Chairman.
    Chairman Rockefeller.  Thank you, Senator Feingold.
    Senator Bond?
    Vice Chairman Bond. Thank you, Mr. Chairman.
    Director McConnell, there's a little bit of lack of clarity 
in some of the discussions earlier on.
    I think General Hayden said that there is a group of lawful 
techniques which can be used in interrogation. Some of them are 
in the Army Field Manual and some of them are the techniques 
that would be used by the CIA. In response to a question, you 
said that we do use coercive techniques. But my understanding 
is you only use techniques if they are coercive to lead a 
detainee to give information.
    And I would imagine if the Army Field Manual techniques did 
not have some coercion, they wouldn't be used. Can you clarify 
for me--you are not implying, are you, that the techniques the 
CIA uses are coercive, whereas the Army Field Manual techniques 
are not coercive?
    Director McConnell.  No, sir. That wasn't what I implied. I 
did not use the word ``coercive,'' or at least I don't recall 
using it.
    I was describing it as enhanced. Now, you may say I'm 
splitting hairs here.
    Vice Chairman Bond. No, I wrote it down that you said 
coercive, and I just wanted to make sure that we were clear. Is 
it your view that the techniques used by the CIA under its 
program are different from but no more painful or violative of 
the standards which are applied to the Army Field Manual, that 
they would comply, should the Army Field Manual tomorrow pick 
up the CIA techniques?
    Of course, they'd be published, and then they wouldn't be 
effective on high-value detainees, but they could be picked up 
by the Army Field Manual, is that correct?
    Director McConnell.  Yes, sir, I would say ``enhanced.''
    Vice Chairman Bond. Enhanced.
    Director McConnell.  The techniques are enhanced. They are 
effective. They're not coercive, and they're lawful. And now 
the expert on this subject, of course, is General Hayden, so 
let me offer him a chance to follow up my remarks.
    Vice Chairman Bond. I'll always be proud to hear from 
General Hayden.
    General Hayden.  Thank you, Senator.
    Just to reinforce and, if you don't mind, maybe draw 
together a couple of points that were kind of scattered about 
in some earlier conversations, we have a body of techniques 
that we believe to be lawful and the Attorney General has said 
are lawful and that we briefed to the Committee and staff. They 
are beyond those authorized by the Army Field Manual, but I 
think Senator Hatch pointed out that the Army Field Manual can 
be a transitory document. It can change.
    The current Army Field Manual, for example, I think most 
people would judge to be less robust than the Army Field Manual 
that it replaced. And so there are changes that can take place 
there.
    I've said that the techniques that I have briefed the 
Committee inside the CIA program are appropriate--lawful, 
certainly, otherwise we wouldn't have the conversation--but 
appropriate and adequate to the needs of the CIA program, as 
are, I believe, the Army Field Manual to what DOD has to do and 
the processes contained in the various regulations of the FBI 
for what they have to do.
    But ours is different. It was brought up earlier, the 
interrogation of Saddam Hussein, which revealed some very 
interesting and very valuable information, but I'd only point 
out that was done over a period of months.
    Vice Chairman Bond. And before he was about to be hanged.
    General Hayden.  Yes, sir, in an environment that was. . .
    Vice Chairman Bond. Talk about an enhanced interrogation 
technique. I think Johnson said there's nothing that clarifies 
the mind like the prospect of a hanging in a fortnight.
    General Hayden.  And it was done as a retrospective.
    Vice Chairman Bond. From old English lit.
    General Hayden.  Yes, sir. It was done as a retrospective. 
It was done as forensics on events past, again, very valuable, 
but different than what we need.
    Let me say something very clearly, Senator. I really need 
to put this on the record. We will play to the edges of the box 
that the American political process gives us.
    In the creation of that box, if we're asked a view, we'll 
give a view. But the lines drawn by that box are the product of 
the American political process. Once you've drawn the box, once 
that process creates a box, we have a duty to play to the edge 
of it; otherwise, we're not protecting America, and we may be 
protecting ourselves.
    If the American political process draws the box and makes 
it equal to the Army Field Manual, we will play inside the box 
labeled ``Army Field Manual'' or the Miranda process.
    One should not expect this Director or a subsequent 
Director--that's not really very interesting--let's talk about 
the officers of the Central Intelligence Agency--one should not 
expect them to play outside the box because we've entered a new 
period of threat or danger to the Nation. So there's no wink 
and nod here.
    If you create the box, we will play inside the box without 
exception. If it is the judgment of the American political 
process that the Army Field Manual and the processes of the FBI 
are adequate to the defense of the Republic in all conditions 
of threat, in all periods in the future, that's what we will 
do.
    My view is that would substantially increase the danger to 
America and that my agency should be allowed to continue the 
use of techniques which have been judged lawful by the Attorney 
General and briefed to this Committee.
    Vice Chairman Bond. And I believe you have said that the 
less than one third of the less than 100 who were subjected to 
enhanced techniques would not give information using less than 
the enhanced techniques that you used and, thus, the literally 
thousands of intelligence reports that you gained from that 
small subset would not be available.
    General Hayden.  That's correct, Senator.
    Vice Chairman Bond. Well, my thanks to all of you. My 
apologies to the Chairman.
    General Maples.  Sir, could I make just one follow-on 
there?
    Vice Chairman Bond. Oh, please do, yes.
    General Maples.  Since the Army Field Manual has been 
mentioned several times, and the fact that it could be 
rewritten, to my knowledge right now, within the Department of 
Defense and within the Army, there's no intention to rewrite 
that field manual and that the manual does give us the kinds of 
techniques that we believe we need to have in order to be 
successful.
    Vice Chairman Bond. Well, when Mr. Piro questioned Saddam 
Hussein, he claimed he was an envoy of the President of the 
United States. Is that within the tactics in the Army Field 
Manual?
    General Maples.  It is. Yes, sir.
    Vice Chairman Bond. You can say you're an envoy.
    General Maples.  And Mr. Piro was also all-knowing, and he 
used a number of techniques that could be considered as a part 
of the manual.
    General Hayden.  I believe--and, Mike, correct me if I'm 
wrong--that's called false flag, and it's a limited technique, 
and I believe the field manual confines that to unlawful 
combatants.
    Director McConnell.  Yes.
    General Hayden.  Not to the normal lawful combatants.
    Vice Chairman Bond. Most interesting. I will follow up at 
our subsequent open hearing on the powers that the intelligence 
reform bill should have given to the community and also ask you 
about budgeting problems.
    But I appreciate the forbearance of the Chairman and your 
willingness to join us for this lengthy session. And if we do 
not get called on the floor to play in the FISA sandbox this 
afternoon, we will look forward to further discussions.
    Chairman Rockefeller.  Thank you, Mr. Vice Chairman. Please 
don't collect your papers yet. I have two more questions. We 
will be meeting in less than 2 hours, hopefully. No, actually, 
hopefully, we'll be doing FISA on the floor before that, but I 
don't think that's going to happen.
    Two questions. One, I want to go back to the subject that 
you and I were discussing, Director Mueller, about the threat 
to America from within America. First, I want to go to China 
and Taiwan, a juxtaposition. The Chinese have basically made 
peace with all of the countries that they border, some 14, and 
others in Southeast Asia and have made a remarkable kind of 
effort to do that, providing aid, all kinds of things.
    They've made none whatsoever, of course, with Japan and 
Taiwan. And then there is always us. So those three stand out.
    There are many who think that communism, except for the 
party apparatus and the big meeting places, doesn't really 
exist any longer in China, that it's been changed irrevocably 
because of economic forces, and that the Chinese leaders who 
throughout history, including all imperial history, obviously 
have never been elected.
    And, therefore, the two present leaders, neither of whom 
have any sort of military connections, are then also lacking 
that, which has been a stronghold of other previous leaders. 
And that, therefore, when a Tiananmen Square comes along or 
there's mercury in a stream or factories are closed down and 
tens of thousands of workers--and this becomes almost a daily 
routine somewhere in that very vast country--are demonstrating 
that Chinese leaders overreact because they are fundamentally 
afraid of their own people.
    They have authority over their own people, but throughout 
Chinese history, going back to the Boxer Rebellion, the May 4th 
Movement, way before that, the people have been free to revolt 
and to change their leadership. Those lessons are never lost on 
the Chinese, because they never forget in their 5,000 years.
    So that's one scenario, that they're afraid of their people 
and of disruption within their own country, and with good 
reason, with the hundreds of millions of people who have not 
yet landed anywhere, migrating from east to west, and not 
having found a place.
    And so what they do, then, is they turn to nationalism, 
because nationalism is a button that really works in China, and 
that they do that either toward Japan and the Yasukuni shrine 
visit by a prime minister and not to Taiwan, for obvious 
reasons, even though there is tens of billions of dollars of 
commerce--and I think air service, at least in one direction--
between those two entities.
    And so one asks the question: Is the Taiwan-mainland 
China--is that for eternity? Deng Xiaoping used to say, ``Wait 
50 years, and things will solve themselves. Don't always feel 
you have to take action. Problems work out.'' He was a wise 
man.
    I'm putting the question to you. The probable next 
president of Taiwan is not in favor of stirring up independence 
in Taiwan. It would seem to me that the economic future and the 
personal interrelationship of Taiwan and the mainland could 
very well signal more peace and a growing willingness to deal 
with each other and jaw at each other from time to time, but 
actually not doing anything about it, in spite of all the 
missiles that are aimed at Taiwan and in spite of all the 
energy as Taiwan prepares to prepare itself.
    So I'm interested in how long you think this is going to 
last, if you think that Deng Xiaoping--maybe you have to add on 
an extra 25 or 30 years--will be proven right, number one.
    And, second, Director Mueller--and I would ask Director 
McConnell to also comment on this--this country has changed 
enormously in recent years. The whole problem of income 
disparity, the problem of joblessness, the problem of 
degradation of our culture, primarily through television and 
sexually explicit and violence, which is I think a shame upon 
our Nation and a shame upon Hollywood, this Nation has changed.
    And when I mention disaffected youth or people, whether 
they're doctors or whether they're young people, it strikes me 
that the climate for people doing things that they never would 
have considered doing before simply out of frustration and 
because new tools are available to them--and you, Director 
Mueller, discussed extensively the Internet, the whole question 
of cyber security and all the rest of it--that you don't have 
to go to Pakistan to train.
    You can just go on the Internet to find out how to do a 
suitcase bomb. You don't have to climb poles and jump over 
trenches. So I really worry that the American people don't 
worry. I really worry that, because there's been no attack 
since 9/11, that the American people have let down their guard.
    I really worry that the Department of Homeland Security is 
treated as a stepchild in Government and is funded often as a 
stepchild in Government and that all of this bodes for our not 
being able to protect ourselves and to have the sort of day-to-
day vigilance which is required psychologically and actually to 
be on a strong state of alert as we are in other parts of the 
world.
    Now, those are two questions, and I'm already way over my 
time, but I'd like to have answers.
    Director McConnell.  Could I start, sir? Would that be all 
right?
    Chairman Rockefeller.  Please.
    Director McConnell.  Let me go to China-Taiwan. I would 
agree with Deng Xiaoping. In time, it will heal itself. The 
greatest risk now is miscalculation.
    As you said, the United States is a very different place 
than it was 50 years ago. China is a very different place than 
just a few years ago. Their biggest challenge is stability. The 
focus of the party in power is to, first of all, keep the party 
in power.
    And so the argument is how do you maintain a society of 1.3 
billion people, half of which have not yet had the fruits of 
this economic prosperity and growth rained down on them, and 
move them in a way that it remains stable, they get access to 
raw materials and they have markets for which they can sell 
their goods.
    So my view is it will become more democratic over time, and 
the Taiwan-China situation will solve, but the greatest risk 
for us is miscalculation or an event that gets out of control. 
You mentioned that leadership could overreact, and that's my 
worry. If it's left to just its normal trend, I think it will 
evolve to be a different place.
    With regard to your question on extremists in this country, 
I would highlight we've always had extremists in this country, 
always. The difference, in my view, is the tools that they have 
access to can do disproportionate harm or damage in relation to 
one or two or three, because of things like the Internet, 
because of things like explosives or flying airplanes into 
buildings.
    All the things that one could dream up could have a broadly 
disproportionate impact on our society because of the tools and 
the technology available to them.
    Chairman Rockefeller.  And your reason for the fact that we 
don't seem to be that worried about it because we keep saying 
there's never been anything that's hurt our country since 9/11?
    Director McConnell.  I think that is shaped by political 
debate and leadership. The country will respond to the right 
kind of leadership, I believe, and so it's making the argument 
and having the debate, because it would be a very vigorous 
debate.
    Some of the things that you alluded to about Hollywood and 
the kinds of material they produce and so on--there are going 
to be many people that would disagree with you, in the interest 
of freedom of speech and not controlling anything and so on.
    So there's going to be a tremendous debate. Either we're 
going to have an event that causes us to be shocked and 
awakened, and then we'll start to move down that path, or the 
leadership and the dialog will take us in a different 
direction.
    Chairman Rockefeller.  Thank you, sir.
    Director Mueller?
    Director Mueller.  Yeah, I agree with the Admiral. We've 
always had extremists, disaffected, McVeigh being an example, 
responsible for the Oklahoma City bombing.
    But those who are disaffected now have greater access to 
information, greater access to instruction on how to 
manufacture devices, greater capabilities of intersection with 
others through the Internet or through other communications, 
and the damage is disproportionate given the capabilities that 
one has today.
    As to complacency, yes, I mentioned it before. We have 
become complacent over a period of time, and we have to resist 
that complacency, understand that there are people out there 
who wish to do us harm in our communities and continue to work 
with State and local law enforcement ourselves but also work 
with other members of the community to identify those who seek 
to do us harm before they can undertake such attacks.
    Chairman Rockefeller.  All right. We recess and we meet 
again not far from here at 2:30.
    And I thank you all very, very much.
    [Whereupon, at 1:04 p.m., the Committee adjourned.]
                       Submission for the Record

=======================================================================


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Question 1: (U) a) To what extent has the government of President 
Preval been able to tackle ongoing problems with government corruption? 
Is the Haitian National Police (HNP) force taking adequate steps, with 
the support of U.N. forces, to address drug trafficking and armed 
criminal gangs? How is the training of the HNP progressing? b) In 
recent months, the U.N. Stabilization Mission in Haiti (MINUSTAH) role 
has shifted toward helping Haitian authorities combat the trafficking 
of arms, drugs, and people. What steps are MINUSTAH and the Preval 
government taking to improve the security of Haiti's border with the 
Dominican Republic and to increase patrols of the country's maritime 
borders? What are the prospects of economic refugees from Haiti 
arriving on U.S. shores?

    Question 2: (U) During President Bush's recent visit to Israel, the 
case of Jonathan Pollard--an American citizen who pleaded guilty in 
1986 to conspiracy to deliver national defense information to Israel--
was reportedly on the unofficial agenda. During the 1998 Wye River 
Summit, then Director of Central Intelligence George Tenet threatened 
to resign if Mr. Pollard's life sentence was commuted. Are you opposed 
to the release of Mr. Pollard? How would the release of Mr. Pollard 
affect the Intelligence Community and our national security interests?

    Answer: (U) We are unequivocally opposed to leniency for Mr. 
Pollard. This is the unanimous view of the counterintelligence 
community. Our reasons are still best stated in the January 30, 1996 
letter from then-FBI Director Louis Freeh to then-Attorney General Reno 
and the strong stance taken in 1998 by then-Director of Central 
Intelligence George Tenet. Additional classified information, 
previously submitted to the SSCI during the years of this matter, 
remains valid as to the grave national damage caused by this 
individual. Clemency for Pollard will undermine U.S. security practices 
and complicate U.S. counterintelligence programs.

    Question 3: (U) a) The Administration has stated that the surge in 
Iraq is producing the desired results. Defense Secretary Gates recently 
stated that if progress continues in Iraq, he will authorize the 
redeployment of five military combat brigades. What is the current 
Intelligence Community (IC) assessment regarding neighboring countries' 
activities with respect to current conditions in Iraq? How does the IC 
assess potential actions that neighboring countries may taken should 
the U.S. initiate drawdown activities in the near future?

    Question 3: (U) b) To what extent are you concerned that armed 
Sunni Arab Iraqis now associated with the Anbar Awakening movement and 
Concerned Local Citizens committees could pose a threat to the Iraqi 
government or U.S. forces? What role are Shiite militia groups such as 
the Jaysh Al Mandi likely to play in Iraq's security over the coming 
year?

    Answer: (U) We continue to monitor the effectiveness and durability 
of tribal and former insurgent local citizens groups--commonly referred 
to as Sons of Iraq (SOIs)--and their interaction with the Iraqi 
government. We judge that over the next 6 months these security 
initiatives probably will remain a viable mechanism for countering 
extremist threats, providing economic opportunities, and allowing for 
constructive Sunni participation in a unified Iraq over the next 6 
months and beyond as long as the Coalition or the Iraqi Government 
funds SOI contracts or provides job opportunities.
    (U) We judge that if the Iraqi Government is unwilling or unable to 
meet Sunni expectations for economic opportunities and integration into 
government positions, the risk that SOIs will suspend support for local 
security initiatives and resume violence against Coalition forces and 
the Iraqi Government will increase.
    (U) We judge Shia militia groups will continue to have a 
destabilizing affect on Iraq's security environment over the next year. 
The public rhetoric of Muqtada al-Sadr, the head of the Jaysh al-Mandi 
(JAM) militia, has become increasingly vocal about his long-held anti-
Coalition and anti-Iraqi government stance over the last month and his 
militia has become increasingly active against Coalition forces in 
Baghdad and southern Iraq and is likely to remain so while being 
targeted by the--Iraqi government.

        a.(U) Increasing competition between the Sadrists and other 
        Shia organizations such as the Islamic Supreme Council of Iraq 
        (ISCI) and its militia wing, Badr Organization, for political 
        power and economic resources has the potential to further erode 
        security in southern Iraq. Many Sadrists probably view the 
        recent targeting of senior Sadrist officials in Najaf and 
        Basrah as an attempt by ISCl/Badr to undermine the Sadrist 
        movement in the run-up to provincial elections.

        b.(U) Shia organizations such as Jund al-Sama, the Shia 
        messianic cult responsible for violence in early 2006 and 2007, 
        retains a capability to conduct high-profile violence in the 
        Shia holy cities of Najaf and Karbala as well as in provincial 
        capitals in southern Iraq. Jund al-Sawa historically conducts 
        their violence around major Shia religious holidays such as 
        Ashura and Arbaeen.

    Question 3: (U) c) Please describe the current state of Iranian 
intervention in Iraq in terms of the supply of weaponry, financing, or 
training to Iraqi groups. What level of threat do weapons and supplies 
of Iranian origin pose to U.S. and Coalition personnel?

    Answer: (U) Iran, primarily through the Iranian Revolutionary Guard 
Corps-Qods Force (IRGCQF), continues to provide weapons, funding, 
training, and logistical support to certain Iraqi Shia militants. We 
have recovered weapons in Iraq that were clearly manufactured by Iran, 
and some with relatively recent factory markings. Tehran uses the 
provision of lethal aid to build ties to an array of influential 
actors, protect the Shia in the event of civil war, prepare for future 
contingencies such as, military action against Tehran, as well as 
ensure the US suffers setbacks in Iraq.
    (U) We assess Iran continues to provide Iraqi Shia militants 
explosive devices or components, including explosively formed 
penetrators (EFPs), rockets, mortars, C-4, small arms and munitions. 
Attacks from EFPs--the vast majority of the components of which we 
assess come from Iran--are of particular concern because of the number 
of casualties they inflict on Coalition forces. We assess Iran also has 
supplied Shia militants with 107mm and 204mm rockets that have been 
used to attack Coalition Forces and Iraqi Government targets. We judge 
Iranian-supplied rockets were used by Jaysh al-Mandi militants to 
attack the International Zone and other Coalition facilities and bases 
during the recent fighting in Baghdad, Al Basrah, and several southern 
cities.

    Question 3: (U) d) Do you agree with the recent comments by the 
Iraqi Defense Minister that it will take until 2018 to defend Iraq's 
borders? Do you believe the current level of violence in Iraq will 
hold, get better, or get worse? Are the factors behind the drop in 
violence sustainable?

    Answer: (U) We are unable to confidently judge when Iraq will be 
fully capable of defending its borders. We judge the amount of time 
that is required before Iraq is able to defend its borders will depend 
on several factors, including how rapidly the ISF is able to address 
critical shortfalls in combat service support and combat enablers such 
as fire support and intelligence; the amount of time required for the 
ISF to acquire, integrate, and become proficient in modern combat 
equipment; the capacity of Iraq's security ministries to absorb and 
train additional forces; and the level and type of Coalition support 
provided to the ISF in the coming years.
    (U) We assess with moderate confidence that overall security gains 
in Iraq will be maintained during the next 6 months because most of the 
factors underpinning security trends are likely to remain viable. 
Coalition and ISF population security operations will continue to 
inflict losses and constraints on AQI; the security contributions of 
the Sons of Iraq, assisted by the Coalition and grudgingly supported by 
the GOI, will continue to weaken the Sunni insurgency while bolstering 
the fight against AQI; and Iraqi Security Forces--supported by 
Coalition training, logistics and combat support elements--will 
continue to improve their operational capabilities.
    (U) Nevertheless, AQI is still capable of conducting spectacular 
attacks despite disruptions of its networks. Stability remains fragile 
in southern Iraq as Shia groups continue to compete for political power 
and economic resources and the Iraqi Government forcibly confronts the 
JAM. Security in northern Iraq also remains tenuous as Sunni resistance 
elements and AQI increasingly focus their activities in the area.

    Question 3: (U) e) Does the Intelligence Community assess al-Sadr 
and his militias will continue their cease-fire indefinitely? Do they 
retain the capacity to return to violence? Will the recently approved 
de-Bathification law promote reconciliation or discord between Shiite 
and Sunni factions? How big a role will Ahmed Chalabi play in the law's 
implementation?

    Answer: (U) Prime Minister Maliki's recent endorsement of 
operations against the Jaysh al-Mandi (JAM) militia and public warning 
that the Sadrists cannot participate in the political process unless 
the militia disbands could diminish the Sadrists' stake in the 
provincial elections and decrease Muqtada al-Sadr's incentives to use 
political, rather than violent, means to gain influence.
    (U) Sadr on 7 April 2008 publicly announced he would disband the 
JAM only if top Shia clerics in An Najaf or Qom, Iran, ordered him to 
do so. Sadr also has warned that he would lift the freeze on attacks by 
his group if government military actions against the group become too 
far-reaching.
    (U) The JAM also may resume attacks to relieve supporters' 
frustration about Iraqi Security Forces (ISF) operations and to press 
the Iraqi Government to address Sadrist demands, including an end to 
indiscriminate raids and a release of JAM prisoners. Although the 
efforts of the Iraqi government to limit the scope of their operations 
have so far prevented major JAM violence, recent ISF and Coalition 
operations in Sadr City and ongoing clashes in Al Basrah could trigger 
widespread fighting.
    (U) Muqtada al-Sadr on 3 April 2008 called for an end to ISF 
operations against JAM members and the Sadrist movement is reacting to 
stepped-up government pressure by keeping its JAM militia at high 
readiness to resume violence quickly if directed.
    (U) Recent passage of de-Bathification reform by the Council of 
Representatives (COR), along with several other laws, marks a step 
toward Iraqi political reconciliation. The impact of de-Bathification 
reform will depend on how effectively it is implemented, who is 
appointed to the new de-Ba'thification Commission, and what procedures 
and regulations govern its work.
    (U) Ahmad Chalabi is unlikely to have significant influence over 
the implementation of the Law on Accountability and Justice unless he 
can secure an appointment to the new Higher National Commission of 
Accountability and Justice (HNCAJ), which will replace Chalibi's Higher 
National De-Ba'athification Commission.

    Question 3: (U) f) How likely are we to secure Iraq's borders with 
Iran and Syria without these countries' cooperation?

    Answer: (U) We judge increased efforts by the Iraqi government to 
garner legitimate cooperation from Tehran--in addition to implementing 
measures to filter out corrupt members of the Department of Border 
Enforcement (DBE), increasing funding for additional border security 
personnel and new equipment, and engaging border area tribal leaders--
will be necessary to improve security along the Iraq-Iran border. Iraqi 
police and DBE are constrained by corruption, militant infiltration, 
insufficient manpower, and outdated equipment and are at present 
incapable of stopping the flow of Iranian-made explosives, weapons, 
drugs, oil, and people across Iraq's 900-mile border with Iran.
    (U) We judge the Iraqi government will have difficulty securing 
Iraq's borders with Syria without additional measures taken by Damascus 
to secure the Syrian side of the border and prevent Sunni extremists 
from crossing into Iraq. Over the past year, Damascus has taken more 
aggressive action against some Sunni extremists in Syria and has 
continued to take steps to increase security along its border with 
Iraq, such as installing new border guard posts; improving earthen 
berms at the border; and engaging Iraq and other states in the region 
to increase border security. Despite these efforts, we estimate the 
majority of foreign terrorists continue to travel to Iraq via the 
Syria-Iraq border.

    Question 4: (U) a) Does Iran have the ability to mate a nuclear 
warhead to a long- or medium-range ballistic missile? Can International 
Atomic Energy Agency (IAEA) safeguards provide confidence in the 
ability of the United States and/or the IAEA to detect a revived 
Iranian nuclear weapons program?

    Question 4: (U) b) The National Intelligence Estimate (NIE) 
released this past December states that ``the earliest possible date 
Iran would be technically capable of producing enough HEU (Highly 
Enriched Uranium) for a weapon is late 2009, but that this is very 
unlikely.'' The NIE adds that ``Iran probably would be technically 
capable of producing enough LIEU for a weapon sometime during the 2010-
2015 timeframe.'' It also notes that ``INR judges Iran is unlikely to 
achieve this capability before 2013 because of foreseeable technical 
and programmatic problems.'' This estimate also states that ``[all 
agencies recognize the possibility that this capability may not be 
attained until after 2015.'' However, the NIE also states that ``Iran 
probably would use covert facilities -- rather than its declared 
nuclear sites -- for the production of highly enriched uranium for a 
weapon.'' Do the NIE's timelines assume that Iran would use covert 
enrichment facilities, rather than its known enrichment facilities? 
Would Iran's use of a covert facility alter the timelines 
significantly?

    Question 4: (U) c) To what extent, if at all, does the recently 
published National Intelligence Estimate on Iran's nuclear program 
alter the perception of threat from Iran? How would you characterize 
the potential Iranian overall threat to broader U.S. interests in the 
Middle East?

    Question 5: (U) (a) Please provide an assessment of the strength, 
capabilities, and intentions of remaining al-Qa'ida operatives in Saudi 
Arabia. What steps have Saudi authorities taken to secure critical 
energy infrastructures such as the Abqaiq oil facility that was 
attacked in 2006? (b) To what extent are Saudi nationals and 
organizations based in Saudi Arabia providing material or financial 
support to international terrorist organizations? To what extent are 
Saudi nationals and organizations supporting armed Sunni groups in 
Iraq? How do you assess current Saudi efforts to curtail the flow of 
fighters and money from the kingdom to combatants in Iraq and terrorist 
groups elsewhere?

    Question 6: (U) a) To what extent are you concerned that the 
Turkish military will launch another invasion of northern Iraq to 
combat the terrorist organization Kongra Gel (KGK), formerly known as 
the Kurdistan Workers Party -- or PKK? How has U.S. assistance to the 
Government of Turkey mitigated this concern? How much of a threat does 
KGK pose directly to the U.S. and U.S. interests? b) In 2007, the 
moderate Islamist Justice and Development Party (AKP) secured a second 
term in office despite objections from the military command and 
secularist groups. Are you concerned about the possible loss of 
Turkey's secular identity and, if so, why? Please assess the changes in 
Turkey's relations with Arab and Muslim countries since the AKP came to 
power and any concerns you might have about these relations. In 
particular, how do Turkey's relations with Iran and Syria and 
dependence on Russian gas affect, conflict or undermine U.S. policies?

    Question 7: (U) The threat posed by Islamist militancy in western 
Pakistan appears to be growing. a) What new steps might the Pakistan 
Government take to more effectively combat al-Qa'ida and affiliated 
groups in the tribal regions of Pakistan? b) How does the Intelligence 
Community assess Islamabad's ability to curb support emanating from the 
FATA to the Afghan Taliban, whose insurgency is a threat to the 
government of President Karzai?

    Answer: (U) If the Pakistan Government took the following steps, it 
would more effectively combat al-Qa'ida and affiliated groups in the 
tribal regions of Pakistan:

        a. (U) Exert sustained effective military pressure on militants 
        and their al-Qa'ida allies, reducing their de facto control of 
        portions of the FATA.

        b. (U) Integrate sustained effective military pressure with 
        administrative, economic, educational, legal and social reforms 
        that reduce the leverage of militants and their al-Qa'ida 
        allies.

        c. (U) Improve police and paramilitary forces' ability to 
        provide justice and border security.

        d. (U) Provide effective political leadership that effectively 
        explains the reasons for military action and orchestrates the 
        administrative, economic, educational, legal, and social 
        reforms to reduce the leverage of militants and their al-Qa'ida 
        allies.

    (U) Islamabad can curb support emanating from the FATA to the 
Afghan Taliban. Pakistan has substantial military and intelligence 
resources that it has not used in the FATA, and its leadership has not 
made reducing militancy there a top priority.
    (U) Three factors account for Pakistan's lack of action. First, 
civilian and military leaders for the most part do not appreciate the 
threat that FATA-based militants pose to Pakistan. Second, military 
leaders have been more concerned about the threat from India. Third, 
Islamabad is not prepared to bear the very substantial costs of a 
larger military effort, such as counterattacks by tribal militants and 
their al-Qa'ida allies through the length and breadth of Pakistan, as 
occurred in the latter half of 2007 and early 2008, with heavy military 
casualties, and strong public criticism of the government.
    (U) The newly elected civilian leaders in Islamabad and at the 
provincial level in Peshawar are slowly beginning to come to terms with 
the threat of militancy in the tribal areas. They are beginning to 
examine the administrative and economic steps that would be necessary 
to counter militancy over the long term. Their public statements 
suggest they see some role for military action as well, but we expect 
that new civilian leaders will reduce the pace of military efforts 
against FATA militants in the near term.
    (U) Taliban based in Baluchistan also provide important support for 
the insurgency in Afghanistan.

    Question 8: (U) Two independent assessments on the situation in 
Afghanistan were recently released -- one prepared by the Atlantic 
Council of the United States and the other by the Afghanistan Study 
Group. The reports state that (1) NATO forces in Afghanistan are in a 
``strategic stalemate'' and that ``NATO is not winning''; (2) 
Afghanistan remains a failing state, and could become a failed state,'' 
and (3) progress in Afghanistan ``is under serious threat from 
resurgent violence, weakening international resolve, mounting regional 
challenges, and a growing lack of confidence on the part of the Afghan 
people about the future of their country.'' The administration has 
recently announced that 3,200 Marines would be sent to Afghanistan to 
stem shortfalls in troop levels there.

        a. (U) Do you agree with these assessments? Why is violence up 
        27 percent last year? Is NATO winning or losing in Afghanistan? 
        How large is the Taliban insurgency? How does this compare with 
        recent years?

        b. (U) What is the role of al-Qa'ida in the Taliban insurgency 
        in Afghanistan? Does al-Qa'ida control any insurgent forces in 
        Afghanistan?

        c. (U) Will the Government of Afghanistan ever be able to 
        defend itself and provide security and services with outside 
        assistance? How long will this take?

        d. (U) What is the role of Iran in Afghanistan? How has it 
        changed in the last year?

        e. (U) What would be the consequences for NATO of a withdrawal 
        from Afghanistan? Is NATO able to sustain its deployments to 
        Afghanistan?

    Answer: (U) After almost thirty years of continuous warfare, 
Afghanistan and the international community face enormous challenges in 
building a self-reliant, sustainable government. Notable gains have 
been made but there is a long way to go. Increased violence last year 
was a result of a combination of operations by international forces and 
insurgent initiated activity. The insurgents cannot capture ground held 
by International Security Assistance Force (ISAF) troops but Afghan 
National Security Forces (ANSF) are not yet able to hold ground cleared 
by ISAF. The Taliban-led insurgency includes hardcore militants and 
part-time fighters and overall numbers are hard to assess. We judge 
that despite losses among leaders and the rank and file last year that 
the Taliban can find replacements and will remain a formidable 
challenge in 2008.
    (U) We judge that al-Qa'ida fighters comprise a comparatively small 
percentage of the overall insurgent force, frequently working with 
Taliban commanders. Al-Qa'ida does, however, provide fmancial and 
personnel support as well as assistance in training and propaganda.
    (U) Improvements made in governance at the national level have not 
yet, for the most part, fully extended to the provincial and district 
level. The creation of the Independent Directorate for Local Governance 
in the Presidential palace is an attempt to close that gap. The Afghan 
National Army (ANA) continues to grow and improve. Some units are 
capable of limited independent activity but it will be at least several 
years before the ANA is ready to take a leading role against the 
insurgency. Development of the Afghan National Police lags behind the 
Army.
    (U) Iran is a major aid donor providing funding for development and 
reconstruction in Afghanistan--particularly in the western region of 
that country, and is engaged in counter-narcotics efforts along the 
Afghan border. Iran's active pursuit of its own interests, however, 
undermines Afghan objectives to achieve peace and stability. Iran does 
not limit its support to a single political, religious, or ethnic group 
in Afghanistan. Tehran provides financial support to government-aligned 
tribes and former Northern Alliance contacts politically opposed to 
President Karzai, while also funding and arming the Taliban in 
Afghanistan. Since 2006, Iran's IRGC Qods Force has provided weapons to 
the Taliban for use against Afghan government and international forces. 
The frequent weapons shipments Iran has arranged have included small 
arms and associated ammunition, rocket-propelled grenades, mortar 
rounds, 107mm rockets, plastic explosives, explosively formed 
projectiles (EFPs), and probably man-portable air defense systems 
(MANPADS) to the Taliban.
    We believe Iranian lethal support is aimed more at attempting to 
raise the costs for the United States and our ISAF partners of our 
presence in Afghanistan -- inflicting casualties on international 
forces in an attempt to negatively affect public opinion in ISAF troop-
contributing nations -- than at restoring a Taliban government.

    Question 9: (U) Is al-Qa'ida as strong today as it was on 11 
September 2001? How serious is the Government of Pakistan about the 
threat from al-Qa'ida? How effectively have the Pakistanis dealt with 
the al-Qa'ida presence in the FATA?

    Question 10: (U) How aggressive is China in collecting against 
sensitive and protected U.S. systems, facilities, and development 
projects? Is the counterintelligence threat to the U.S. from China at 
the same level as it was during the cold war? What are the challenges 
of prosecuting suspected espionage cases involving China? What has been 
the evolution of threats of cyber-attacks and computer spying from 
China?

    Answer: (U) The Counterintelligence Community considers the 
People's Republic of China (PRC) to be one of the most aggressive 
countries targeting U.S. military, political, and economic secrets as 
well as sensitive U.S. trade secrets and technologies. A broad spectrum 
of entities is involved in the collection effort. For example, the PRC 
Intelligence Services (PRCIS) such as the Ministry of State Security, 
People's Liberation Army (PLA) General Staff 2nd Department and 3rd 
Department, Liaison Office of the PLA General Political Department, and 
the PRC Ministry of Public Security--are major collectors. The PRCIS 
has the intent, the patience, and the capability to spot, target, 
assess, and recruit U.S. officials with high-level access to sensitive 
U.S. Government information.
    (U) Nonprofessional intelligence collectors--including government 
and commercial researchers, students, academics, scientists, business 
people, delegations, and visitors--also provide China with a 
significant amount of sensitive U.S. technologies and trade secrets. 
Some members of this group knowingly or unknowingly collect on behalf 
of PRCIS or Chinese defense industries, presenting a significant 
intelligence threat. But in many cases, the collection efforts of these 
private-sector players are driven entirely by the opportunity for 
commercial or professional gain and have no affiliation with PRCIS. 
Although, in such cases, the Chinese government is not involved in the 
collection effort, it has been a major beneficiary of the acquired 
technology.
    (U) For a number of reasons, we believe China poses a significantly 
greater foreign intelligence threat today than it did during most of 
the cold war era.

        a. (U) China's economic boom has enabled the government to 
        invest in a broad spectrum of advanced technical intelligence 
        collection capabilities. That increase in basic capability 
        poses a rising challenge to U.S. military, intelligence, and 
        security operations.

        b. (U) The sizable increase in immigrants and visitors from 
        China to the United States has created a large pool of 
        potential targets for PRCIS. For example, in 1989 about 32,000 
        immigrants entered the United States from China. By comparison, 
        in 2006 and 2007 the figures were about 87,000 and 77,000. The 
        overwhelming majority of these visitors are in the United 
        States to pursue legitimate objectives, but Chinese 
        intelligence services and other PRC Government institutions 
        exploit the access these individuals afford.

    (U) We respectfully recommend you refer your question regarding the 
challenges of prosecuting suspected espionage cases involving China to 
the Department of Justice.
    (U) China has identified the U.S. critical infrastructure as a 
lucrative target for cyber as well as kinetic attacks; however, we have 
little direct information on specific plans to attack these systems. We 
assess that Beijing currently has the technical capabilities to target 
and disrupt elements of the U.S. information infrastructure and 
aggressively targets U.S. Government, military, and private sector 
information systems for intelligence collection. Over the past two 
years, a number of U.S. Government departments and agencies--including 
the Department of State, the Department of Commerce, the Department of 
Energy, and the Department of Defense--have been victims of computer 
network intrusions that appear to have originated in China. Determining 
the exact origins of these attacks, however, is a challenging technical 
problem.

    Question 11: (U) Between 2004 and 2005, Egypt experienced a series 
of bombings against tourist sites in the Sinai Peninsula. Since then, 
the situation has become relatively stable. In your opinion, were these 
bombings a result of local grievances, or were they influenced or 
carried out by international organizations such as al-Qa'ida? How 
secure is the Suez Canal, and are U.S. warships passing through the 
Canal a target for terrorist groups?

    Answer:(U) TWJ appears to be motivated by Cairo's harsh treatment 
of the Bedouin community and difficult economic conditions in the Sinai 
Peninsula. Animosity between the Bedouin and the Egyptian government 
runs deep, although the Taba bombings marked the first Bedouin 
involvement in violence against the Egyptian state.

        a. (U) The Bedouin tribes have historically considered 
        themselves a distinct ethnic group from other Egyptians, and 
        some Egyptians consider them second-class citizens.

        b. (U) The Egyptian government has largely failed to deliver on 
        promises to improve economic opportunities and infrastructure 
        in the Sinai, and the aggressive tactics of the Egyptian 
        security services in the northern Sinai following the attacks 
        likely fueled further resentment of the central government.

    Question 12: (U) a) Do you believe that it is important for the 
Intelligence Community to examine issues such as water shortages, 
disease, and the environment as threats to U.S. national security? What 
unique resources, expertise, or information does the Intelligence 
Community have to add to this issue? To what extent have Intelligence 
Community analysts examined the impact of climate change? Does the 
Intelligence Community have sufficient resources to adequately address 
the environmental change issue? What judgments, if any, have they made 
with regard to the potential impact of climate change on National 
Security? How much analytic disagreement, if any, has there been with 
regard to the potential impact of climate change on National Security, 
and how would you characterize the range of any such disagreement? b) 
To what degree do the intelligence services of the other countries view 
climate change as a national security issue? c) Which world's regions 
have analysts assessed to be at greater risk of instability as a result 
of climate change? Of those regions, will any significantly affect U.S. 
national security, and over what period of time could such a threat 
expect to emerge? d) What is the assessment of the eventual likelihood 
of territorial conflict due to climate change? What conclusion, if any, 
have intelligence analysts reached with regard to climate change, its 
impact on regional and global instability, and the effect such 
instability may have on religious and political extremism and, 
ultimate, any increase in terrorism?

    Answer: (U) This question calls for a partial classified response. 
The Intelligence Community (IC) examines state stability as a critical 
part of determining potential threats to U.S. interests. In this 
analysis, water shortages, disease, and the environment are considered 
along with other factors. The IC also considers the effects that 
climate change negotiations and mitigation efforts will have on the 
U.S. economy, its trade goals, and its diplomatic relationships with 
the international community. Based upon a recent National Intelligence 
Priorities Framework (NIPF) review and Congressional interest, the 
National Intelligence Council (NIC) is preparing a National 
Intelligence Assessment (NIA) on the national security impacts of 
global climate change to 2030. The assessment will provide judgments of 
the IC on the broad potential impacts of climate change on National 
Security. This assessment has not yet been completed so we have no 
information on any analytical disagreement among the members of the IC. 
If there is disagreement, this will be documented in the NIA, using the 
same footnote procedure the NIC uses for National Intelligence 
Estimates (NIEs). For determining the physical impacts of environmental 
and climate changes, the IC relies heavily upon research work from 
other organizations (non-government and government). However, the 
general scientific literature and research is more concentrated at the 
global level, and often not targeted at areas that may be of interest 
to the IC. In addition, many climate-related impacts on state and 
regional stability are likely to be felt first in areas of the world 
where IC agencies--particularly collection agencies--have limited 
resources and expertise. Hence, there is a need for better research/
information on state/regional level on physical, agricultural, 
economic, social, and political impacts from climate change. This 
research does not necessarily require classified sources or methods and 
may be performed in an open/unclassified environment. However, once the 
impacts are understood, the IC is equipped to make the determination if 
the impacts cross a national security threshold. A section of the NIA 
will be devoted to challenges to the IC in performing these kinds of 
assessments. The IC is evaluating its own ability to make contributions 
to the scientific study of environmental and climate change issues 
through a special study with the National Academy of Sciences (NAS). 
Results from this effort--which may also identify specific IC needs--
are not expected until next year. As a result of previous research we 
had put in place a long-term collection program to observe critical 
sites using national classified systems, and these data are being 
routinely collected through the US Geological Survey (USGS) and the 
Civil Applications Committee (CAC). Working with NAS, we will add 
additional sites, globally, as appropriate. These data will be a 
valuable resource to evaluate future trends in climate and 
environmentally sensitive sites. In addition, the Department of 
Energy's Office of Intelligence and Counterintelligence is expanding 
its climate change analytical capabilities, as well as prototyping an 
unclassified strategic intelligence network focused on these issues.
    (U) The regional impacts and likely significance to national 
security from climate change will be discussed in the forthcoming NIA.
    (U) The potential for climate change to cause territorial conflict, 
or regional instability will be discussed in the forthcoming NIA.

    Question 13: (U) Many health analysts are concerned about the 
threat of emerging (e.g. the H5N1 strain of avian influenza) or re-
emerging (e.g. severe acute respiratory syndrome) infectious diseases. 
Is there a role for the Intelligence Community in the effort to protect 
the U.S. from diseases that might originate overseas but threaten U.S. 
territories? Does the Intelligence Community collect intelligence on 
the international efforts to improve state openness, global reporting, 
monitoring, and containment of infectious diseases, and to prepare for 
pandemics, coordinating national and global responses to infectious 
disease outbreaks, and including resource and distribution challenges?

    Answer: (U) The Intelligence Community (IC) plays a crucial role in 
the protection of U.S. persons and national interests from emerging or 
re-emerging disease outbreaks. The IC provides earliest possible 
warning, and forecasts potential primary, secondary, and tertiary 
impacts from these events, using both clandestine collection and open 
source collection of foreign print and electronic media.
    (U) Not all countries are capable of detecting--or are forthcoming 
in reporting--disease outbreaks. In the absence of such data, there may 
be important gaps in the international disease surveillance conducted 
by national and international health agencies such as the Centers for 
Disease Control (CDC) and the World Health Organization (WHO). The IC 
helps to close these gaps through the use of clandestine reporting and 
foreign language open source material that provide insights into 
foreign governments' transparency, capabilities, intentions, and 
effectiveness in responding to disease outbreaks. Further, the IC is 
developing partnerships with non-IC agencies such as the CDC to enable 
data sharing and strengthen US government warning capabilities for 
emerging and re-emerging diseases. IC examination of foreign news 
websites through use of an Open Source Center capability called ARGUS 
provided the CDC with the first indications of an Ebola outbreak in the 
Democratic Republic of Congo last year.
    (U) While national and international health agencies assess 
information on the spread of emerging diseases and their impact on the 
health of populations, the IC is unique in providing policymakers with 
all-source analysis of potential primary, secondary, and tertiary 
impacts from these events (including the international political, 
economic, and security ripple effects). Further, the IC provides 
dynamic threat assessments and develops scenarios that clarify how a 
foreign government may respond should an outbreak occur. The 2003 
outbreak of Severe Acute Respiratory Syndrome (SARS)--which, in spite 
of a very low mortality rate resulted in an estimated $40 billion of 
economic losses in affected countries--demonstrated that the strategic 
impact of a disease can outweigh the public health one. Throughout the 
SARS period, IC analysts tracked not only the course of the disease, 
but the havoc it was wreaking on the global economy.

    Question 14: (U) What intelligence does the Intelligence Community 
have about how the U.S. position on the use of enhanced interrogation 
techniques impacts U.S. national security interests? What does that 
intelligence indicate?

    Answer: (U) The Central Intelligence Agency will respond to this 
question under separate correspondence.

    Question 15: (U) a) Please describe the recently announced Cyber 
Initiative (cyber security) program. Is the program focused only on 
cyber security related issues relevant to the Intelligence Community?

    Answer: (U) This question can be answered only at the classified 
level. The program is focused on the critical cyber infrastructure of 
the U.S., beginning with that of the entire Federal Government. The 
role of the Intelligence Community (IC) is only one small part of a 
holistic inter-agency effort to improve cyber security across the 
government. The U.S. information infrastructure, which is critical to 
our national security and prosperity, is under constant threat by a 
growing array of state- and non-state adversaries. An integrated and 
holistic national approach is needed to implement effective solutions, 
and will include an emphasis on defensive and offensive capabilities 
such as intelligence, law enforcement, counterintelligence, and 
information assurance capabilities.

    Question 15: (U) b) There has been much criticism over the years 
that the IC increasingly has focused on current or tactical 
intelligence rather than on strategic intelligence. The result, 
according to some observers, is that the government's capacity to think 
broadly and strategically has been reduced. Do you agree with that 
general assessment? If so, what steps have you taken to address the 
problem and what evidence can you submit that would indicate progress? 
If not, why not?

    Answer: (U) In March 2005 the Commission tasked to investigate the 
IC's approach to Iraqi Weapons of Mass Destruction (WMD) issued their 
report. The report addressed the IC's need to foster long-term research 
and strategic thinking, and recommended a dedicated research and 
analysis unit within the National Intelligence Council (NIC).
    (U) In 2006, the Office of the DNI took seriously the Commission's 
diagnosis and recommendation, and established a new dedicated 
organization, the Long-Range Analysis Unit, within the NIC. The Unit is 
staffed by a combination of research directors and rotational analysts 
from across the IC and has been active in developing strategic 
intelligence for the National Security Council and the policy planning 
staffs of the Departments of State and Defense.
    (U) The Unit's staff works closely with analysts from across IC 
agencies and a wide range of outside academics, researchers and 
practitioners on issues deemed important for strategic intelligence. 
The Unit has produced strategic intelligence on the implications of WMD 
proliferation, the prospects for global democratization, the 
implications of the rise of China, and the social and political 
consequences of climate change, among many other issues. Since mid-
2006, the Unit has produced 14 strategic level studies.
    (U) The Unit is currently taking the IC lead on development of a 
large study on global trends looking out fifteen to twenty years. The 
study effort is undertaken every 4 years, and the results are widely 
used by policymakers, academics, and the media both in the US and 
abroad. A key purpose of the study is to orient top US policymakers 
toward the trends and likely contexts in which future policy will be 
developed and implemented.
    (U) Besides the LRAU's work, the NIC continues to provide 
policymakers with IC-coordinated strategic analysis. As with LRAU 
papers, NIC products oftentimes serves to orient and prompt strategic-
level analysis from the individual analytic agencies. In the past few 
years, individual agencies--such as the CIA/DI--also have developed 
extensive annual research programs, which emphasize strategic and long-
range analysis.

    Question 15: (U) c) The 9/11 Commission and other groups have 
argued that in the past, intelligence agencies tended to rely on 
information from sensitive sources, neglecting important information 
available in newspapers, the Internet and other ``open sources.'' Are 
you satisfied that open source information is currently being 
thoroughly and effectively used by intelligence agencies? What steps 
have been taken to ensure the integration of Open Source information 
into all source analysis?

    Answer: (U) The Deputy Director of National Intelligence for 
Collection will respond to this question under separate correspondence.

    Question 16: (U) The CSIS Commission on Smart Power's recent report 
noted that the United States influence abroad has waned dramatically, 
with majorities of the world's population not trusting the U.S. to act 
responsibly, and viewing our role in the world negatively. These 
numbers have become even worse in the last years -- especially in the 
Middle East. How significant is the United States standing in the world 
to the Intelligence Community? How do negative views of the U.S. impact 
our national security?

    Answer: (U) Department of State polling confirms the general 
observation that foreign publics, especially in the Middle East, have a 
much more negative view of the United States than they did a decade 
ago. That, however, is not the only facet of public opinion that has 
salience for foreign policy formulation. Polling also indicates, for 
example, that in a number of countries, including some in the Middle 
East, polled individuals value relations with the United States and 
frequently describe relations as generally good, even if their view of 
the United States is less than rosy. These findings point to a 
pragmatic sense among publics about bilateral relations that leaders 
draw upon as part of their policymaking calculus in deciding whether to 
cooperate with the United States on various issues.

    Question 17: (U) a) Do public threats against the government of 
Iran weaken or strengthen the opposition to the regime of the 
Ayatollahs? How strong is Ahmadi-Nejad's position? b) The American 
ambassador to the U.N. said on February 1, 2008, that the U.S. led 
invasions of Afghanistan and Iraq ``helped Iran's relative position in 
the region.'' Do you agree with his assessment? c) What is your 
assessment of the likelihood that Iran and Syria would be willing to 
engage in multilateral efforts to stabilize Iraq? d) Are sanctions 
against Iran having an effect on the country? Have they had an effect 
in changing decisions by Iran's leaders? e) Was the January 2008 Strait 
of Hormuz incident a deliberate attempt to force a confrontation 
between Iran and the United States? Is there a danger that a similar 
incident in the future could lead to an unintended conflict between the 
U.S. and Iran?

    Answer: (U) Public threats against the government of Iran--which 
presumably would target Iran's objectionable foreign policies or 
nuclear program--probably do little to strengthen opposition to the 
regime, but may provoke policy debates among regime elites.

        a. (U) Internal opposition to the regime is fragmented and 
        primarily is based on parochial domestic issues--such as 
        ethnic, religious, and localized economic or political 
        grievances--that have little linkage to regime activities that 
        might prompt foreign threats.

        b. (U) Iran's leaders frequently attempt to use foreign threats 
        to rally support for the regime. For example, Iranian elites in 
        March 2008 tried to use the passage of U.N. Security Council 
        Resolution 1803, which placed additional international 
        sanctions on Iran, to encourage greater voter participation in 
        Iran's Majles (parliament) elections as a sign of popular 
        support for the government and opposition to international 
        pressure.

        c. (U) Nonetheless, we judge that foreign threats play a role 
        in internal policy debates and political infighting between 
        regime insiders. Iranian leaders who favor a more pragmatic 
        approach to international affairs sometimes blame their hard-
        line rivals for engaging in provocative actions that may 
        endanger or disadvantage Iran.

    (U) President Mahmud Ahmadi-Nejad's internal political standing and 
prospects for re-election are unclear. Ahmadi-Nejad's policies and 
abrasive style appear to have alienated many regime elites, but he 
retains the public support of Supreme Leader Khamenei and, so far, 
seems to have escaped popular blame for his controversial actions and 
inflationary economic policies.

        a. (U) We judge that many senior regime figures have serious 
        concerns about Ahmadi-Nejad's policies--especially his populist 
        economic programs and provocative approach to international 
        affairs--or dislike his management practices and political 
        style. In addition, we judge that Ahmadi-Nejad's economic 
        policies are fueling inflation and other economic problems, 
        which are the biggest source of popular dissatisfaction with 
        the regime.

        b. (U) Nonetheless, Ahmadi-Nejad retains the public backing of 
        Supreme Leader Khamenei and we see little open indication that 
        he is being broadly blamed by the Iranian public for Iran's 
        economic woes and increased international isolation.

        c. (U) The Majles (parliament) elections on 15 March should 
        have provided the latest opportunity to judge Iranian public 
        attitudes toward national political issues, but candidate 
        vetting, restrictions on campaign techniques, the re-election 
        of relatively few incumbents, and the murky nature of Iranian 
        domestic political affiliations make it difficult to determine 
        how Ahmadi-Nejad's allies fared.

        d. (U) We note that Ahmadi-Nejad's institutional authority--
        despite his elevated public profile--pales in comparison to 
        Supreme Leader Khamenei, who remains the ultimate decisionmaker 
        on Iranian domestic and foreign policy.

    (U) Iranian leaders probably perceive that regional developments--
including the removal of Saddam and the Taliban, challenges facing the 
U.S. in Iraq and Afghanistan, and the influence of HAMAS and 
Hizballah--have given Tehran more opportunities and freedom to pursue 
its objective of becoming a regional power. Despite Tehran's ambitions, 
we judge regional geo-strategic rivalries, religious and ethnic 
animosities, and concerns of neighboring states regarding Iran's 
foreign policy and military programs will limit the success of Iran's 
efforts to expand its influence.
    (U) We assess that Iran likely would be willing to participate in 
multilateral efforts to stabilize Iraq, but we note that any 
participation would primarily be intended to further Iran's own 
interests in Iraq. Tehran would see participation in such efforts as an 
opportunity to legitimize its presence in Iraq, learn more about the 
activities of other foreign actors engaged in Iraqi stabilization 
efforts, and perhaps direct additional international resources to its 
allies.

        a. (U) Tehran's ability to help stabilize Iraq may be limited. 
        Although Iranian lethal aid to Shia militias in Iraq currently 
        enables violence, we judge that Tehran has only a limited 
        ability to encourage reconciliation.

        b. (U) Nonetheless, Iranian participation in such efforts might 
        be useful in terms of aligning Iranian assistance with broader 
        international efforts, reducing some of Iran's concerns that 
        Coalition activity in Iraq is targeting their interests, and 
        giving the U.S. additional insight into the scope of Iranian 
        involvement in Iraq.

        c. (U) Syria also most likely would be willing to participate 
        in multilateral efforts to stabilize Iraq to gain influence in 
        any Iraqi government and to look cooperative to the 
        international community. Damascus's contribution to stability 
        probably would be limited to increasing patrols of its border 
        with Iraq and taking more consistent steps to stop the flow of 
        foreign fighters transiting Syria. Syria, however, probably 
        would continue reaching out to Iraqi Sunni and Shia groups to 
        increase its influence regardless of the implications for 
        multilateral efforts.

    (U) We judge that U.S. and U.N. actions against Iran since the fall 
of 2006 have disrupted Iran's international financial and commercial 
activity, raised its cost of business, and contributed to Tehran's 
continuing engagement in discussions about its nuclear policy. Tehran, 
however, is seeking to minimize the effect of sanctions by developing 
options and we see little indication that sanctions yet have changed 
decisions by Iran's leaders who, for example, remain publicly resolute 
about not suspending uranium enrichment.
    (U) We assess the January 2008 Strait of Hormuz incident likely was 
initiated unilaterally by local Iranian Navy commanders and that it was 
not an attempt by Tehran to provoke a confrontation between Iran and 
the United States. We see no indication, however, that Tehran has 
instructed naval units to alter their operational approach or to less 
aggressively defend Iran's maritime boundaries. The assertive attitude 
of Iranian naval units and ongoing bilateral tensions between Iran and 
the United States make similar future incidents likely. There is a 
danger of escalation should a future incident turn violent.

    Question 18: Is Hizballah stronger or weaker than at the end of the 
conflict with Israel in the summer of 2006? Given that many believe 
that Hizballah is a more capable organization than al-Qa'ida, do you 
believe we are allocating enough intelligence resources against it?

    Question 19: (U) a) Which foreign intelligence service currently 
poses the most significant counterintelligence threat to the United 
States? What intelligence or sensitive information is that service 
generally targeting for collection? b) The Department of Energy 
oversees a complex of scientific laboratories that engage in some of 
this government's most sensitive nuclear research. How significant a 
target do the laboratories remain for foreign intelligence services? 
Which foreign service do you view as the most aggressive at targeting 
the national laboratories, and what information and intelligence is 
being targeted for collection? c) As director of the government agency 
with principal responsibility for counterintelligence, what is your 
assessment of the quality of DOE's counterintelligence program? d) How 
serious is the cyber threat confronting the DOE complex, including its 
weapons laboratories and what steps are being taken to address the 
problem? What evidence can you point to that indicated progress is 
being made in confronting this problem?

    Question 20: (U) In your testimony before the Committee, you stated 
that ``we do not use coercive techniques of any sort in the course of 
our interrogations.'' Have you been briefed on the CIA's enhanced 
interrogation techniques? If so, do you consider the CIA's enhanced 
interrogation techniques to be coercive? Please elaborate. Has the 
FBI's Office of General Counsel examined the Army Field Manual? Has the 
FBI determined whether its interrogation and/or interview techniques 
would be affected if the FBI were limited to only those techniques 
authorized by the Army Field Manual?

    Answer: (U) Although I am aware generally (largely from press 
reports) of some of the enhanced interrogation techniques the CIA has 
used, I have not been briefed on their ``enhanced interrogation 
techniques'' and I can, therefore, not comment on whether they are 
coercive. In my opinion, though, waterboarding, which General Hayden 
has acknowledged was used on certain high value detainees, is coercive.
    (U) As for the FBI's interrogation policy, the FBI has continued 
its time-tested interrogation technique of ``rapport-based 
interviewing'' in its criminal and intelligence interviews, both 
domestically and abroad. This technique comports with the U.S. Federal 
Court due process standard for voluntariness. Furthermore, ``[i]t is 
the policy of the FBI that no attempt be made to obtain a statement by 
force, threats, or promises.'' This interrogation policy was reaffirmed 
in a 5/19/04 Electronic Communication (EC), subject: ``Treatment of 
Prisoners and Detainees,'' from the FBI General Counsel to all FBI 
divisions. This EC stated: ``It is the policy of the FBI that no 
interrogation of detainees, regardless of status, shall be conducted 
using methods which could be interpreted as inherently coercive, such 
as physical abuse or the threat of such abuse to the person being 
interrogated or to any third party, or imposing severe physical 
conditions.
    (U) The FBI's Office of the General Counsel is familiar with the 
relevant portions of the applicable Army Field Manual, including its 
list of eighteen permitted interrogation approaches. We are not aware 
of any FBI technique that would be prohibited by the Field Manual. 
Likewise, we are not aware of any Field Manual technique the FBI would 
prohibit. Nevertheless, we do not believe that a manual designed for 
use by soldiers, who may have limited law enforcement experience and 
education, on a battlefield would be appropriately applied to the FBI, 
which has both a domestic law enforcement mission and a national 
security mission. The FBI has a long history of conducting interviews 
using techniques that have been accepted by Article III Courts for use 
in interviewing criminal defendants. These standards could be different 
from those acceptable for use in a battlefield setting. It would be 
counterproductive if the FBI were forced to return to the courts to 
demonstrate that its currently court-approved techniques remain 
legitimate under the Field Manual's standards.
  

                                  <all>

</pre></body></html>
